<html>
<title> - IMMIGRATION NEEDS OF AMERICA'S FIGHTING MEN AND WOMEN</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                    IMMIGRATION NEEDS OF AMERICA'S 
                         FIGHTING MEN AND WOMEN

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 20, 2008

                               __________

                           Serial No. 110-92

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
42-509 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
LINDA T. SANCHEZ, California         LOUIE GOHMERT, Texas
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota
ANTHONY D. WEINER, New York

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


                            C O N T E N T S

                              ----------                              

                              MAY 20, 2008

                                                                   Page

                           OPENING STATEMENT

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     4
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     5

                               WITNESSES

Ms. Margaret Stock, Attorney and Lieutenant Colonel, Military 
  Police Corps, United States Army Reserve
  Oral Testimony.................................................     9
  Prepared Statement.............................................    13
Ms. Karla Arambula de Rivera, E2 Officer, United States Navy
  Oral Testimony.................................................    16
  Prepared Statement.............................................    18
Ms. Christine Navarro, KC-5 Aircraft Commander, United States Air 
  Force
  Oral Testimony.................................................    19
  Prepared Statement.............................................    20
Lieutenant General (Retired) Edward D. Baca, President and CEO, 
  Baca Group
  Oral Testimony.................................................    21
  Prepared Statement.............................................    23
Mr. Mark C. Seavey, Assistant Director of the National 
  Legislative Commission, American Legion
  Oral Testimony.................................................    24
  Prepared Statement.............................................    26

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     3
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................     6
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     7


         IMMIGRATION NEEDS OF AMERICA'S FIGHTING MEN AND WOMEN

                              ----------                              


                         TUESDAY, MAY 20, 2008

              House of Representatives,    
      Subcommittee on Immigration, Citizenship,    
   Refugees, Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:39 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Gutierrez, Jackson Lee, 
Waters, King, Goodlatte, Lungren and Gohmert.
    Also Present: Representative Conyers.
    Staff Present: Traci Hong, Majority Counsel; Ur Mendoza 
Jaddou, Majority Chief Counsel; Andres Jimenez, Professional 
Staff Member; and George Fishman, Minority Counsel.
    Ms. Lofgren. The hearing of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and 
International Law will come to order.
    This is a hearing that I think is very important because it 
is about the duty we owe to those we ask to pay the last full 
measure of devotion. This duty should transcend politics and 
partisanship, and in this we can find agreement. We owe no 
greater duty than the one we owe to the members of the Armed 
Forces and their families.
    As we ask our troops to stand in harm's way as we send them 
to war, our duty to our soldiers, airmen and women and Marines 
must remain paramount. As they protect us, we must protect 
them. Each of them is a son or a daughter, a husband or a wife, 
a parent or a child, a brother or a sister.
    Tens of thousands are immigrants. Countless others have 
spouses or other close relatives who are immigrants or have 
immigration issues. Our duty to these brave men and women 
obligates us to ensure that their focus stays on their mission 
and on the safety and security of those they serve with. We 
must do all we can to reduce the stresses of war on the 
families of these brave men and women. The wives, husbands, 
children, parents, brothers and sisters of our soldiers agonize 
every minute of every day for their loved ones who stand in 
harm's way. They do double and triple duty while their loved 
ones are away.
    For our troops, peace of mind about the home front is the 
ultimate comfort. When our soldiers or their family members 
face immigration issues, it clouds their effectiveness and 
their focus. We must do all we can to relieve the burden that 
our service members face.
    Last year, I was privileged to meet Petty Officer Second 
Class Eduardo Gonzalez when he testified before the Immigration 
Subcommittee. A United States citizen, he enlisted in the U.S. 
Navy in 2003 after graduating from high school and going on to 
earn an associate's degree in occupational studies.
    Eduardo has been deployed to Iraq three times on ship and 
on shore. He was married in 2004 to his long-time girlfriend. 
They now have a son.
    When they married, Eduardo's wife had been waiting for more 
than 4 years to get her Green Card. What neither Eduardo or his 
wife realized was that, simply by getting married, she would no 
longer be eligible to get her Green Card because her 
application was dependent on her being the single child of her 
mother. Eduardo's wife came to the U.S. from Guatemala when she 
was 5 years old. She had waited for years for USCIS to process 
her case, but she was in danger of being deported.
    When I talked to Eduardo, he expressed the great burden his 
wife's immigration difficulties placed upon him. They were 
distracted. He told me how he constantly worried about her and 
how he feared that she might be deported while he was at sea or 
in a combat zone. He worried that their child would be left 
without a mother and a father.
    Another soldier whose wife arrived legally in the U.S. at 
age 13 but overstayed her visa thereafter feared that his wife 
would be deported and worried that his 2-year-old son would be 
in limbo while he was deployed for the third time. Quote, ``I 
joined the Army, and I take pride in what I do,'' Angel 
Rodriguez said, ``but it is hard being away and defending a 
country that doesn't want your family.''
    These stories, real stories, are happening every day to 
soldiers serving our Nation; and that is the reason why I 
believe we must change the law to provide immigration 
assistance to family members of American soldiers. It would be 
one small measure we could do for those we ask to pay the last 
full measure of devotion for us.
    I look forward to hearing from our witnesses today who can 
each provide us their own perspectives on the need for 
immigration changes for our soldiers, from the perspective of a 
3-star general who has commanded many soldiers in need of 
immigration help, soldiers trying to navigate an immigration 
system that has thus far failed them and from an attorney who 
volunteers her time to help soldiers around the country solve 
their immigration cases where she can.
    I would like to recognize the sister of one of our 
witnesses, Airman Karla Rivera, who is with us today in the 
audience. Ms. Daisy Maldonado, who is 12 years old, has 
traveled all the way from Tustin, California, to watch her 
sister testify. And we welcome you, and we hope that you enjoy 
your day here.
    I would also like to note that Sergeant Yolanda Guevara has 
come all the way from North Carolina with her husband and three 
kids to show her support at this hearing. She, too, is 
experiencing the labyrinth of immigration law and has not yet 
found a way out. Thank you for being here today.
    I would now like to recognize our distinguished Ranking 
Minority Member, Steven King, for his opening statement.
    [The prepared statement of Ms. Lofgren follows:]

 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law

    The duty we owe to those we ask to pay ``the last full measure of 
devotion'' transcends politics and partisan pettiness. In this we can 
find agreement--we owe no greater duty than the one we owe members of 
the Armed Forces and their families.
    As we ask our troops to stand in harm's way, as we send them to 
war, our duty to our soldiers, sailors, airmen and marines must remain 
paramount. As they protect us, we must protect them.
    Each of them is a son or a daughter, a husband or a wife, a parent 
or a child, a brother or a sister. Tens of thousands are immigrants. 
Countless others have spouses or other close relatives who are 
immigrants or have immigration issues.
    Our duty to these brave men and women obligates us to ensure that 
their focus stays on their mission and on the safety and security of 
those they serve with.
    We must also do all we can to reduce the stresses of war on the 
families of these brave men and women. The wives, husbands, children, 
parents, brothers and sisters of our soldiers agonize every minute of 
every day for their loved ones who stand in harm's way. They do double 
and triple duty while their loved ones are away.
    For our troops, peace of mind about the home front is the ultimate 
comfort. When our soldiers or their family members face immigration 
issues, it clouds their focus and effectiveness.
    We must do all we can to relieve the burden our service members 
face.
    Last year, I was privileged to meet Petty Officer Second Class 
Eduardo Gonzalez when he testified before the Immigration Subcommittee. 
A United States citizen, Eduardo enlisted in the United States Navy in 
2003 after graduating from high school and going on to earn an 
associate's degree in occupational studies. Eduardo has been deployed 
to Iraq three times, on ship and shore.
    Eduardo was married in 2004 to his longtime girlfriend. They now 
have a son. When they married, Eduardo's wife had been waiting for more 
than four years to get her green card. What neither Eduardo nor his 
wife realized was that simply by getting married she would no longer be 
eligible to get her green card because her application was dependent on 
her being the single child of her mother.
    Eduardo's wife came to the U.S. from Guatemala when she was 5 years 
old. She had waited for years for USCIS to process her case. But she 
was in danger of being deported.
    When I talked to Eduardo, he expressed the great burden his wife's 
immigration difficulties placed on him. They were distracting. He told 
me how he constantly worried about her, and how he feared that she 
might be deported while he was at sea in a combat zone. He worried that 
their child would be left without a mother and a father.
    Another soldier whose wife arrived legally in the U.S. at age 13, 
but overstayed her visa thereafter, feared that his wife would be 
deported and worried that his two-year-old son would be in limbo while 
he was deployed for the third time. ``I joined the Army and I take 
pride in what I do,'' Angel Rodriguez said. ``But it's hard being away 
and defending a country that doesn't want your family.''
    These real stories happening every day to soldiers serving our 
nation in harm's way is the reason I believe we must change the law to 
provide immigration assistance to family members of American soldiers.
    It would be one small measure we could do for those we ask to pay 
the last full measure of devotion for us.
    I look forward to hearing from our witnesses today who can each 
provide us their own perspective on the need for immigration changes 
for our soldiers, from the perspective of a three-star General who has 
commanded many soldiers in need of immigration help, a soldier trying 
to navigate an immigration system that has thus far failed her, and 
from an attorney who volunteers her time to help soldiers around the 
country solve their immigration cases where she can.
    I'd like to recognize the sister of one of our witness, Airman 
Karla Rivera, who is with us today in the audience. I'd also like to 
note that Sergeant Yolanda Guevara has come all the way from North 
Carolina with her husband and three kids to show her support of this 
hearing. She too is experiencing the labyrinth of immigration law and 
has not yet found a way out. Thank you for being here today.

    Mr. King. Thank you, Madam Chair; and I want to thank the 
witnesses for being here today and for your testimony that I 
anticipate.
    Our Nation owes a debt of gratitude to those legal, 
permanent residents who serve in the U.S. Armed Forces, the 
same debt we owe to citizen soldiers. And since September 11, 
111 noncitizen service members have made the ultimate sacrifice 
and have been granted posthumous citizenship. They have a 
special place in our hearts.
    Congress has long sought to facilitate the naturalization 
of noncitizens serving in the Armed Forces. In fact, our 
immigration laws contain three special naturalization 
provisions just for service members. The first is section 328 
of the Immigration and Nationality Act, which permits a 
permanent resident who has served honorably in the U.S. Armed 
Forces for a year during peacetime to naturalize. In the 108th 
Congress, we reduced the period from 3 years. This is in 
contrast to most legal permanent residents who must be in that 
status for 5 years before they can naturalize, one way of 
respecting and appreciating service in our Armed Forces.
    The second, section 329 of the Immigration and 
Naturalization Act, permits an alien who has served honorably 
in an active duty status in the U.S. Armed Forces during a time 
of war to immediately naturalize. We are now in such a war. As 
of July 3, 2002, President Bush officially designated the 
period beginning on September 11, 2001, as a period of 
hostilities.
    Third, section 329(a) of the Immigration Nationality Act 
provides that an alien who has honorably served in the military 
during a period of hostilities and died as a result can be 
granted posthumous citizenship if requested by their next of 
kin.
    After we learned that some of the members of the military 
who died in combat during Operation Iraqi Freedom were not U.S. 
citizens, Congress acted to provide enhanced benefits to 
permanent resident service members and their families.
    As I mentioned, Congress reduced the peacetime military 
service requirement for expedited naturalization from 3 years 
to 1 year. We prohibited fees from being charged to service 
members who are applying for naturalization. We require that 
naturalization applications, interviews, filings, oaths and 
ceremonies be available through United States embassies, 
consulates and, as practicable, through U.S. military 
installations overseas. We provided that the spouses, children 
and parents of U.S. citizens who died as a result of serving in 
active duty status, including service members granted 
posthumous citizenship, would retain the immigration benefits 
available to the immediate relatives of U.S. citizens.
    However, this hearing is about a much different 
proposition. It is not about easing the naturalization of U.S. 
service members and providing substantive immigration benefits 
to the legally present family members of service members who 
were killed in action. Rather, this hearing is about whether to 
grant amnesty to illegal immigrants who are family members of 
U.S. service members. This hearing is about whether to waive 
many grounds of removability for noncitizens who are serving in 
or who have ever served in the military and for noncitizen 
family members of service members, including those grounds 
predicated on the most serious of crimes.
    Our soldiers fight and, in some cases, give their lives to 
preserve the rule of law. It seems ironic indeed that some 
would propose to disregard the rule of law just as another 
reward or inducement to serve our country.
    How do I know this? Let's take a look at H.R. 6020 
introduced by Chair Lofgren. This bill waives many grounds of 
inadmissibility and deportability for aliens in the military. 
These benefits also go to most aliens who have ever served in 
the military, no matter how short or how long ago were their 
periods of service. And they go to aliens who are the spouses, 
minor children, adult children, parents and minor siblings of 
service members.
    Just what grounds are waived? Well, among them are illegal 
entry into the U.S. and the 3- and 10-year bars to re-entry for 
aliens who have been illegally present in the U.S. more than 6 
months.
    Additionally, immigration judges are given the 
discretionary authority to waive most other nonterrorism-
related grounds, including the authority to waive most criminal 
grounds and document fraud. Falsely claiming citizenship would 
be waived potentially as well as illegal voting.
    And how soon we forget that the abuse of discretion by 
liberal immigration judges forced Congress to remove much of 
their discretion in 1996. Thus, the aliens who arrive in the 
U.S. illegally cannot be removed and can re-enter the U.S. 
despite having been in the U.S. illegally for extended periods 
of time. Immigration judges will have the ability to waive all 
the criminal grounds of deportability for murder, gang crimes 
and rape on down. Remember, these waivers apply not just to 
service members but to their family members and to most aliens 
who have ever served in the military.
    What else does the bill do? It prohibits the use of 
expedited removal against illegal immigrants and immigrants 
convicted of aggravated felonies as long as they served 
honorably in the military at any time. It also would prohibit 
the reinstatement of removal orders against such aliens who 
illegally return to the U.S. after being removed.
    This bill will create a perverse incentive for persons who 
intentionally enter the military for the express purpose of 
procuring amnesty or relief from the immigration consequences 
of serious crimes for themselves or for their extended family 
members. This is not what service to this country is about. We 
do need to stand for the rule of law here.
    I am, though, interested in this testimony; and I do 
appreciate greatly the service to this country by the witnesses 
here and all those they represent.
    Madam Chair, I thank you; and I yield back the balance of 
my time.
    Ms. Lofgren. The gentleman's time has expired.
    I would turn now to the Chairman of the full Judiciary 
Committee, Congressman John Conyers, for any statement he may 
have.
    Mr. Conyers. Thanks, Chairman Lofgren and Ranking Member 
Steve King, Dan Lungren.
    I am trying to work out a way to talk to National Commander 
of the American Legion, Mr. Martin Conatser, but we weren't 
able to communicate before the hearing began. But it might be 
useful if we meet informally and see if we can work out our 
differences; and the first person I would like to ask to join 
myself and Dan Lungren is the Ranking Member, Steve King, if we 
can work out a mutual time to do this.
    Ms. Lofgren. Mr. Chairman, if you would yield to me, I 
would note also that this bill has a good bipartisan group of 
original cosponsors. Mac Thornberry, who is a member of the 
Armed Services Committee, is the lead Republican. I would hope 
that he would be included along with Mike Pence, a Member of 
the Judiciary Committee, as well as Mike Turner, also a Member 
of the Armed Services Committee.
    Mr. Conyers. It's is a good idea. And Lungren and I just 
thought it up a few minutes ago. This has not been laying 
around a long time.
    Mr. Lungren. Mr. Chairman, this is a meeting without 
preconditions.
    Ms. Lofgren. Diplomacy.
    Mr. Conyers. You know, what I keep thinking of, I don't 
know who else served in combat as I have. It is one thing to 
wonder how your family is doing back home. It is another thing 
to wonder if your Government has locked up your spouse or 
kicked her out of the country or whatever could happen.
    Mr. King. If the Chairman would yield. And certainly my 
response to that offer is yes. I would be very happy to sit 
down and discuss this.
    Mr. Conyers. Thank you.
    Mr. King. If I could just make a point. Having those kind 
of discussions really helps us flush out some of the unintended 
consequences. And I don't question the heart. I just question 
some of the potential unintended consequences.
    Mr. Conyers. Thank you. Thank you for that clarification. 
And then we need a little flexibility in the law, and I think 
the Lofgren legislation may cover that.
    You know, to require a person to show up at the immigration 
office when he is in Iraq and the office is in the United 
States as a condition to your wife getting the clearance would 
be funny except that it is so tragic. And so if we really want 
to do this, we would get more efficient about this.
    And then of course our colleague from Texas, Gene Green, 
has another bill that is not under discussion here today that 
also makes this a little more efficient and a little smoother.
    And I am proud of all the witnesses that are here today, 
and I ask that my statement be made a part of the record.
    Ms. Lofgren. Without objection, that is so ordered.
    [The prepared statement of Mr. Conyers follows:]

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary

    We have heard too many tragic stories of people being arrested or 
deported while their loved ones are overseas in Iraq and Afghanistan.
    Patriotism doesn't start only with a naturalization ceremony. Over 
45,000 non-citizens serve in the U.S. military, and countless more 
servicemembers have close immigrant family members.
    The first American killed in Iraq--Lance Corporal Jose Antonio 
Gutierrez--came to the United States illegally. He loved this country 
so much that he dedicated himself to service, and gave his life for his 
new country. We need to honor his sacrifice by recognizing that today's 
undocumented immigrant might be tomorrow's American hero.
    Immigration is a military issue. It affects readiness of native and 
foreign-born troops alike. At worst the broken and inflexible system 
can prevent us from tapping the skills and energy of immigrants who 
want to serve their new country. We must address the immigration issues 
that affect our troops.
    First, active duty soldiers and veterans should be able to become 
citizens expeditiously. They should not be sidetracked into 
``conditional'' permanent residence.
    Second, our troops should not be forced to wait for years to be 
reunited with their spouses or children.

        Administrative functions, such as in-person interviews, should 
        have flexibility.

        A family's applications should not fall through the cracks when 
        we are deploying these men and women all over the world and 
        they cannot attend an in-person interview.

    Third, there needs to be a rational system for dealing with 
undocumented family members.

         Nobody should be distracted from their mission, fearing that 
        their parents or siblings, or spouses will be arrested and 
        deported.

         Nobody should have to go into combat fearing that if they are 
        killed, their spouse will lose their ability to adjust to 
        lawful status.

    I welcome our witnesses--on active duty, in the reserves, and 
members of veterans' organizations. I look forward to tackling this 
important issue.

    Ms. Lofgren. I know that Mr. Smith is not yet present, but 
his statement will be invited, should he appear later. And in 
view of the time and in order to hear from the witnesses, 
without objection, opening statements of all other Members will 
be made part of the record.
    [The prepared statement of Ms. Jackson Lee follows:]

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law

    Chairwoman, Lofgren, and ranking member King, thank you for 
convening today's very important hearing on ``Immigration Needs of 
America's Fighting Men and Women.''
    This Subcommittee is well aware of the problems caused by our 
broken immigration system. U.S. citizens and employers must wait years 
before close family members or needed workers can legally immigrate to 
the United States. U.S. citizens and employers must wait years before 
close family members or needed workers can legally immigrate to the 
United States. If the family members or the workers are undocumented, 
they have no realistic way to gain legal status, even though they may 
be eligible to become permanent residents through family or employment 
petitions. Immigration officials lack the discretion to determine which 
noncitizens should be removed and which noncitizens deserve relief 
based upon their contributions to the United States and the impact on 
their U.S. citizen family, employer, and/or community.
    Due to the nature of military service and the hardship that such 
service imposes on the soldiers and their families, U.S. citizen 
soldiers with noncitizen family members, or lawful permanent resident 
soldiers and veterans are particularly impacted by our dysfunctional 
immigration system. This hearing will examine the immigration problems 
that our soldiers, veterans, and their families face, and discuss 
solutions to these problems that recognize their unique predicament and 
the service that they render our country.
    The following witnesses will assist the Subcommittee in examining 
the immigration problems that our soldiers, veterans, and their 
families face, and discuss solutions to these problems that recognize 
their unique predicament and the service that they render our country.
    Welcome Lt. Col. Margaret Stock, of the Military Police Corps, U.S. 
Army Reserve; Airman Karla Rivera, of the U.S. Navy; Capt. Christine 
Navarro, of the U.S. Air Force; Lt. Gen. (retired) Edward Baca, on 
behalf of the American GI Forum; and, Mark Seavey, Assistant Director 
of the National Legislative Commission, American Legion. Again, 
welcome, and I look forward to hearing your insightful testimony.
    Thank you, I yield the balance of my time.

    Ms. Lofgren. We now turn to our panel.
    It is my pleasure to introduce Margaret Stock. Ms. Stock is 
an attorney and a Lieutenant Colonel in the United States Army 
Reserve. She is currently assigned as an Associate Professor, 
Drilling Individual Mobilization Augmentee, in the Department 
of Social Sciences at the U.S. Military Academy at West Point.
    Ms. Stock earned her bachelor's degree in government at 
Harvard-Radcliffe and a juris doctorate at Harvard Law School 
and master's in public administration at John F. Kennedy School 
of Government, also at Harvard University. She is a 2006 
graduate of the Army War College, which awarded her a master's 
of strategic studies degree. She is a nationally recognized 
expert in issues related to immigration and citizenship law, 
and she has testified on these issues before Congress in the 
past.
    Next, I would like to introduce Karla Arambula de Rivera. A 
native of Mexico, Airman Rivera was brought to live in the 
United States as a little girl and has lived here ever since. 
She married a U.S. citizen in 2004 and later became a 
conditional permanent resident. In March of 2007, she enlisted 
in the Navy. She is currently assigned to the USS Carl Vinson, 
where she serves as an aviation boatswain's mate airman.
    Next, I am pleased to welcome Captain Christine Navarro. 
Captain Navarro is an aircraft commander pilot, assigned to the 
91st Air Refueling Squadron at MacDill Air Force Base. As a 
graduate of the Air Force Academy in 2002, Captain Navarro 
received her commission and degree in astronautical engineering 
with a minor in mathematics. She is currently attending Texas 
A&M University distance learning master's degree program in 
industrial engineering. Captain Navarro has a 3-year-old son 
with her husband, Jose Navarro.
    Our next witness is retired Lieutenant General Edward Baca, 
who is testifying on behalf of the American G.I. Forum. His 
military career included 41 years of distinguished service, 
culminating in appointment by the President of the United 
States to the Chief National Guard Bureau. In his position, 
General Baca oversaw the Army and the Air National Guard in 54 
States, territories and the District of Columbia. General Baca 
began his military career with the New Mexico National Guard. 
At the onset of the Vietnam conflict, he volunteered for active 
duty and overseas deployment and served in the Republic of 
Vietnam.
    Just a few of his numerous awards and decorations include 
the Department of Defense Distinguished Service Medal, two Army 
Distinguished Service Medals, and the Air Force Distinguished 
Service Medal and the Legion of Merit.
    General Baca is a graduate of numerous military schools, 
has a bachelor's of science degree in liberal arts from the 
State University of New York at Albany. He was also awarded an 
honorary doctorate of law degree from New Mexico State 
University at Las Cruces, New Mexico. After retiring from 
active duty military service and prior to forming the Baca 
Group, General Baca consulted in both the public and private 
sectors and devoted his time to community service.
    Finally, I would like to introduce Mark Seavey. Mr. Seavey 
began his career with the American Legion in 1997. Prior to his 
employment with the American Legion, he served in the active 
duty Army, the U.S. Army Reserve and the Virginia Army National 
Guard.
    As an infantry squad leader with the Virginia Army National 
Guard, he was activated for service in Bosnia Herzegovina in 
1997. In 2004, he deployed to Afghanistan for 1 year, 
performing a variety of functions, including providing security 
for Afghan President Hamid Karzai and serving as an infantry 
squad leader on combat patrols.
    Mr. Seavey is a recipient of the Combat Infantryman's 
Badge, two Armed Forces Expeditionary Medals, the NATO Medal, 
two Army Achievement Medals, and other medals from his service. 
He is a graduate of The Citadel, the Military College of South 
Carolina, and has a juris doctorate from George Mason 
University School of Law.
    As I mentioned before our hearing began, the written 
statements of each of the witnesses will be made part of our 
official record of this hearing. We would ask each witness to 
testify for about 5 minutes, and then we will have an 
opportunity to pose questions to you.
    So may we begin with you, Ms. Stock, on your testimony; and 
thanks again for being here.

 TESTIMONY OF MARGARET STOCK, ATTORNEY AND LIEUTENANT COLONEL, 
       MILITARY POLICE CORPS, UNITED STATES ARMY RESERVE

    Ms. Stock. Madam Chairwoman and distinguished Members of 
the Committee, I am honored to be here today to talk with you 
about the field of U.S. citizenship and immigration law and its 
effect on military members, veterans and their families. The 
statements, opinions and views that I will express today are my 
own. They are not necessarily the opinions of the United States 
Military Academy, the Department of the Army, the Department of 
Defense or any other Government agency.
    For the past several months, I have been volunteering with 
the American Immigration Lawyers Association Military 
Assistance Program, a new collaborative effort between the 
American Immigration Lawyers Association and the Legal 
Assistance Offices of the Judge Advocate Generals of the United 
States Armed Forces. The military Legal Assistance Offices 
provide free legal assistance to military members and their 
families, including active duty, reserve component and retired 
military personnel in order to maintain the highest level of 
readiness possible in the event a military member is deployed.
    Recently, JAG attorneys in these offices have been 
inundated with immigration problems, complex immigration 
problems. And to resolve these cases successfully, they often 
need the assistance and experience of immigration lawyers who 
have been dealing with this complex area of the law.
    AILA MAP, this new program with the American Immigration 
Lawyers Association, has brought these two groups together for 
the first time in a dynamic partnership. And as a volunteer 
with AILA MAP, I have been able to see the wide range of 
immigration problems that U.S. military members, veterans and 
their families face today.
    And I will just mention that the U.S. military members who 
are present here today have all contacted AILA MAP for 
assistance, and I became aware of their issues because of that 
program.
    Thus, I am honored to be appearing, as I said, before you 
today to discuss the immigration law problems faced by members 
of the U.S. military and their families. These problems are 
numerous and result from the fact that immigration law is an 
extremely complex area of the law, often arbitrary, and many of 
the laws and regulations that affect immigrants and their 
family members don't take into account the situation of members 
of the Armed Forces fully.
    The U.S. is a global power, and members of the military are 
deployed in more than 100 countries around the world. And while 
our Armed Forces are engaged in fighting a global war on 
terrorism with an enemy who speaks many languages and travels 
internationally and fights our forces here at home and across 
the globe, America's immigration laws often detract from our 
ability to fight that war.
    Currently, many military members fighting overseas find 
that they have to fight their Government back home, as that 
Government creates bureaucratic obstacles that impede military 
readiness by preventing family members from accessing benefits 
or getting benefits under the immigration law, by refusing to 
allow family members into the United States altogether, or even 
seeking to deport military members or their families.
    It is important to emphasize--and I know that many Members 
of this Committee are fully aware of the complexity of 
immigration law, but it is important to emphasize the current 
state of the law. It is dysfunctional and irrational, and it 
only promises to get worse.
    As military members encounter these laws and this system, 
they are often experiencing the same difficulties and 
frustrations that civilians experience. They have to deal with 
a complex system that requires years of study to understand, a 
system that makes it nearly impossible for many people to 
immigrate legally to the United States unless they can find and 
have the funds to hire an extremely experienced immigration 
lawyer. These military members face the added burden that they 
must cope with these complexities of the immigration law while 
at the same time they are coping with the stresses of the 
military lifestyle.
    I applaud Congress for its efforts in recent years to 
smooth the citizenship application process for military 
members, and I would like to note for the record that United 
States Citizenship and Immigration Services has a very 
dedicated team of professionals at the Nebraska Service Center 
who have been doing everything they can to naturalize military 
members as fast as possible. I know they have received some 
criticism, but, in my view, the criticism is probably 
undeserved, because they have been working really, really hard 
to naturalize our military members. I would also note, however, 
that sometimes their efforts are stymied by other agencies that 
are required to do name checks and process fingerprints and 
that sort of thing; and that has caused problems for our 
military members.
    Congress has also made some recent changes to the law so 
that family members sent overseas will not lose their 
entitlement to continue with citizenship and Green Card 
processes simply because they have gone overseas on orders with 
their military family members. We have had a problem in the 
past with that. The fact that you got deployed to Germany meant 
that you lost your ability to naturalize as a U.S. citizen.
    But more needs to be done, and I want to give you some 
examples of immigration problems that still exist and that are 
hurting military readiness.
    First, active duty members of the military are still being 
placed into removal proceedings and forced to hire private 
attorneys, seek assistance from AILA MAP or represent 
themselves. While the Department of Homeland Security is 
represented in removal proceedings by qualified attorneys, it 
does not provide defense attorneys to aliens who are in removal 
proceedings or even U.S. citizens who are mistakenly put into 
removal proceedings. So you have to find a lawyer on your own.
    And although, theoretically, there is a policy with the 
Immigration and Customs enforcement folks that they won't try 
to deport active duty military, that policy doesn't apply 
across the board to everybody in Homeland Security. So they 
have been doing that today.
    I know that Airman Rivera is going to tell you more about 
that later, so I will defer to her personal story on that 
front.
    A second problem military members face is their inability 
to obtain permanent legal status for their family members in a 
timely manner. This doesn't just affect people who are 
unauthorized. This affects legal people. Government processing 
times are slow, the procedures are complex, and the fees are 
often unaffordable for many military families.
    We are finding through AILA MAP that many military spouses 
can't get driver's licenses, can't get Social Security numbers 
and are facing situations where their spouse is being deployed 
overseas by the military and they are left back home without 
the ability to drive, without a Social Security number. This 
puts tremendous strain on the family support groups on the 
bases which have to go and take these people around and take 
them to appointments and things since there is no mass transit 
readily available on a lot of the bases. So this has been a 
problem.
    Another problem, military families are able to file 
applications for immigration benefits, but sometimes they often 
run afoul of the complex laws through no fault of their own. 
They move frequently, so DHS notices don't reach them. We are 
having a little technical problem with DHS where they don't 
recognize APO and FPO addresses in their computer system. So 
military family members don't get notified about things, and 
then they lose their entitlement or become illegal because they 
didn't show up at an appointment or they were ordered to go 
overseas while an application was pending. When these things 
happen, DHS will deny the applications or sometimes put them 
into removal proceedings. We have had a number of military 
spouses put into removal proceedings simply because notices 
didn't reach them on time.
    We have problems with fingerprints where family members 
have to travel more than 100 miles just to get fingerprinted by 
the U.S. Government. We have problems with medical exams where 
military doctors are not recognized by Homeland Security as 
being allowed to do the perfunctory immigration medical examine 
that is required to get benefits.
    But our worst problem right now is the problem faced by 
military family members who are out of compliance with 
immigration law. This is mainly due to the 1996 changes to the 
immigration laws which are extraordinarily harsh. They punish 
people who have been here illegally in the United States and 
leave to go get a visa overseas. In some cases, people have a 
legal status, such as temporary protected status, but they are 
barred from getting a Green Card. So even though they have some 
status that allows them to be here, they can't get permanent 
residence.
    And then there are many military family members who are 
simply barred from getting Green Cards altogether. They have no 
hope of getting a Green Card because there are no waivers to 
many of the violations of immigration law that they are 
involved with. These laws have a particularly harsh effect on 
military families and force them to make a choice between 
abandoning their families--military members have to decide 
whether to abandon their families or to leave the United States 
military altogether.
    Ms. Lofgren. Ms. Stock, I mentioned to all of you that I 
would not have a heavy gavel out of respect for our military, 
but we do need to ask you to summarize at this point.
    Ms. Stock. I will.
    Madam Chairwoman, I will just give you one case in point. 
George Mayicka, who is an Army soldier who serves in the 
critical health care field. His wife was told by an immigration 
judge, and an immigration attorney working for the Government, 
that if she simply left the United States and went overseas to 
a consulate she would get her immigrant visa and be back in 6 
months. When she went overseas to get her visa at the 
instruction of the immigration judge, the State Department told 
her that she was barred permanently from the U.S. and could 
never be allowed back in.
    George Mayicka now is facing a really difficult choice. He 
has to now decide whether to join his wife in Africa, where she 
is now being forced to live, or leave the military, seek a 
hardship waiver from the military to join his wife in Africa, 
or abandon her to stay in the military.
    I offer that as just one case. I know that you will hear 
about others.
    But I want to summarize by saying that President Bush 
emphasized the important contributions of military families in 
his State of the Union address earlier this year. He lauded the 
contributions military families make and how they sacrifice for 
America. It is time that we honor those sacrifices by allowing 
some flexibility in the immigration laws for military families. 
This will enhance military readiness.
    Ms. Lofgren. Thank you.
    [The prepared statement of Ms. Stock follows:]

                Prepared Statement of Margaret D. Stock

    Madam Chairwoman and distinguished Members of the Committee, my 
name is Margaret Stock. I am honored to be here in my capacity as an 
expert in the field of immigration and citizenship law and to discuss 
its effect on military members, veterans, and their families.
    I am an attorney admitted to the bar in the State of Alaska, where 
I have practiced primarily in the area of immigration and citizenship 
law for nearly fifteen years. I have also been a member of the Army 
Reserve for more than twenty-six years; currently, in my capacity as a 
Lieutenant Colonel in the Military Police Corps, US Army Reserve, I am 
assigned as an Associate Professor (Drilling Individual Mobilization 
Augmentee) in the Department of Social Sciences at the United States 
Military Academy at West Point, New York. As an attorney in private 
practice and as an employee of the Department of the Army, I have 
assisted numerous military members and their families with US 
immigration matters. The statements, opinions, and views I express 
today are my own, however, and do not represent the views of the United 
States Military Academy, the Department of the Army, the Department of 
Defense, or any other government agency.
    For the past several months, I have been volunteering with the 
American Immigration Lawyers Association Military Assistance Program, a 
new collaborative effort between the American Immigration Lawyers 
Association (AILA) and the Legal Assistance Offices of the United 
States military Judge Advocate General Corps. The military Legal 
Assistance Offices provide free assistance to military members and 
their families, including active duty, reserve component, and retired 
military personnel in order to maintain the highest level of readiness 
possible in the event a military member is deployed. Recently, JAG 
attorneys have been inundated with complex immigration legal questions. 
To resolve these cases successfully, they often need the assistance and 
experience of seasoned immigration attorneys. AILA MAP has brought 
these two groups together for the first time in a dynamic partnership. 
As a volunteer with AILA MAP, I have been able to see the wide range of 
immigration problems that US military members, veterans, and their 
families face today.
    Thus, I am honored to be appearing before you today to discuss the 
immigration law problems faced by members of the US military and their 
families. These problems are numerous and result from the fact that 
Congress and the Executive Branch have created an extremely complex and 
often arbitrary system of immigration laws and regulations without full 
attention to the detrimental impact that this system has on the 
readiness of the US Armed Forces. The United States is a global power 
and members of its military are deployed in more than a hundred 
countries around the world. And while our Armed Forces are engaged in 
fighting a Global War on Terrorism, with an enemy who speaks many 
languages, travels internationally, and fights our forces here at home 
and across the globe, America's immigration laws often detract from the 
military's ability to fight that war. Currently, many military members 
fighting overseas find that they must also fight their own government 
at home, as that government creates bureaucratic obstacles that impede 
military readiness by preventing family members from accessing 
immigration benefits, refuses to allow family members into the United 
States altogether, or even seeks to deport military personnel or their 
family members.
    It is important to emphasize--as Members of this Committee know 
very well--that the current state of immigration law is dysfunctional 
and irrational, and only promises to get worse. The most apt 
description of the state of our immigration laws comes from former INS 
spokesperson Karen Kraushaar, who said that US ``immigration law is a 
mystery and a mastery of obfuscation.'' As military members encounter 
these laws and this system, they often experience the same difficulties 
and frustrations that civilians experience. They must deal with a 
complex system that requires years of study to understand--a system 
that makes it nearly impossible for many people to immigrate to the 
United States legally unless they can find, and have the funds to hire, 
one of the rare attorneys who knows how to navigate the system 
successfully. And these military members face the added burden that 
they must cope with these complexities at the same time that they are 
coping with added stresses necessitated by today's military lifestyle.
    Congress has done much in recent years to try to help non-citizen 
military members become citizens more quickly, and the process for 
expediting military naturalization cases has improved greatly in the 
past few years. I applaud this effort, which has been highly beneficial 
to the US Armed Forces in obtaining and retaining qualified enlisted 
personnel and officers. Congress also made some recent changes to the 
law so that family members sent overseas will not lose their US 
residency or eligibility to naturalize simply because they have spent 
time overseas with their military spouse or parent. But much more must 
be done. Let me give you some examples of immigration problems that 
still exist, and that are hurting military readiness:
    First, active duty military personnel are still being placed into 
removal proceedings and forced to hire private attorneys, seek 
assistance from AILA MAP, or represent themselves. The Department of 
Homeland Security is represented by qualified attorneys when it moves 
to deport aliens, but it does not provide defense attorneys to aliens 
(or even United States citizens) who are placed into proceedings, even 
if those individuals are active duty military members. DHS has a 
policy--laid out in a document called the ``Forman memo'' \1\--that its 
officers are not supposed to try to deport active duty military 
personnel without checking with their headquarters. Lately, however, 
DHS officers have been ignoring the policy. Active duty military 
personnel have been placed into proceedings--or threatened with being 
placed into proceedings--for technical violations of immigration law. 
To give one example, Navy sailor Karla Rivera was recently placed into 
removal proceedings because she failed to file Form I-751 to lift the 
conditions on her permanent residence--despite the fact that she is 
eligible for a waiver of the timely filing of the form, and despite 
having a pending citizenship application. It is unlikely that the 
United States Government will ever deport Karla--or that there would be 
any rational reason to deport Karla--but this sailor has had to attend 
removal proceedings on the other side of the country, at her own 
expense, despite having a pending citizenship application that will 
likely be approved. Not only is Karla's time being wasted with this 
exercise, but the US taxpayers are paying for the time of immigration 
judges and DHS attorneys so that Karla can be forced to engage in a 
Kafkaesque dance with the immigration bureaucracy. And she must take 
time away from her Navy job to do so.
---------------------------------------------------------------------------
    \1\ Marcy M. Forman, Acting Director, Office of Investigations, 
Immigration & Customs Enforcement, Memorandum, Issuance of Notices to 
Appear, Administrative Orders of Removal, or Reinstatement of A Final 
Removal Order on Aliens with United States Military Service, June 21, 
2004, available at http://www.bibdaily.com/pdfs/Forman%206-21-04.pdf.
---------------------------------------------------------------------------
    Another problem that military members face is their inability to 
obtain permanent legal status for their family members in a timely 
manner. This is a problem that does not just affect military personnel 
whose family members have violated immigration law--it affects 
perfectly legal people as well. Slow government processing times, 
complex filing procedures, and huge fees can often mean that family 
members awaiting their lawful residency cannot obtain Employment 
Authorization Documents, Social Security numbers, or driver's licenses 
for months or sometimes years. Military personnel deployed overseas 
often have spouses and children back home in the United States who 
cannot work or drive legally--and military bases are often very large 
places in isolated areas where mass transit is not readily available. 
Military units are forced to provide transportation and other support 
to these family members because the Department of Homeland Security 
takes so long to approve their applications for the basic legal 
documents that they need to survive on their own in today's America.
    Even when military families are able to file applications for 
immigration benefits, they often run afoul of our complex laws through 
no fault of their own. Because of military requirements, they move 
frequently, so that DHS notices do not reach them timely. The military 
will order them to go overseas while their applications are pending, 
and they often thereby lose eligibility for the benefit they seek. When 
these things happen, DHS will deny their applications or even put them 
into removal proceedings, forcing them again to incur significant time 
and expense to resolve the problem. They also live on military bases 
that are often very far away from the DHS offices with which they must 
file their applications. Many military family members must travel more 
than 100 miles just to have their fingerprints taken for immigration 
benefits. They are also required to take medical exams with DHS-
designated civil surgeons because DHS does not recognize most military 
doctors as being qualified to provide these exams. Thus military 
members and their families are forced to pay large fees and travel to 
obtain the required exams.
    Even worse are the problems faced by military personnel whose 
family members are out of compliance with immigration law. Due to the 
1996 changes to the immigration laws, many of these family members are 
unable to obtain legal status in the United States. In some cases, they 
have a legal status such as Temporary Protected Status, but are unable 
to obtain lawful permanent residence. In other cases, they must leave 
the United States to have any hope of obtaining an immigrant visa--but 
once they leave, they will trigger a bar that prevents their return. 
And finally, there are those who are simply barred from permanent 
residence altogether due to harsh provisions of the immigration laws 
that provide no waivers for even very minor transgressions. In a 
country that professes to value the ideals of family unity, 
forgiveness, and rehabilitation, it is hard to explain why past minor 
violations of immigration law can never be forgiven, but lead to 
permanent banishment from the United States and force the break-up of 
many families, both military and civilian. These laws have a 
particularly harsh effect on military families, forcing military 
members to make a choice between abandoning their families, or leaving 
the United States military altogether.
    The plight of U.S. military family members with these types of 
immigration problems is no better illustrated than by reference to the 
well-publicized case of Yaderlin Hiraldo and Alex Jimenez. Yaderlin's 
situation came to national media attention in mid-2007, when her 
husband, Specialist Alex Jimenez of the United States Army, was 
reported Missing In Action (MIA) after his squad was ambushed in 
Iraq.\2\ Prior to his disappearance, Alex had filed papers seeking to 
obtain lawful permanent residence status for his wife.\3\ Unfortunately 
for Alex, Department of Homeland Security (DHS) officials decided that 
Yaderlin was not eligible for lawful permanent residence (LPR) status 
because she had entered the United States in an irregular manner.\4\ 
She was placed into removal proceedings, and for several years the 
Department of Homeland Security tried to deport her. She was in removal 
proceedings when her husband was reported missing, and had been told to 
leave the US and seek a visa overseas; and yet without his presence and 
support, she could not hope to obtain permission to return to the 
United States, and would be barred for ten years from returning to the 
United States.\5\ But the Department of Homeland Security stood firm; 
she was not to be granted any special grace due to her status as the 
spouse of a deployed soldier.
---------------------------------------------------------------------------
    \2\ Marcus Baram & David Schoetz, A Military Wife's Rock and Hard 
Place: Husband Missing in Iraq; Wife Facing Potential Deportation at 
Home, ABC News, June 20, 2007, http://abcnews.go.com/TheLaw/
story?id=3297537.
    \3\ Marcus Baram & David Schoetz, A Military Wife's Rock and Hard 
Place: Husband Missing in Iraq; Wife Facing Potential Deportation at 
Home, ABC News, June 20, 2007, http://abcnews.go.com/TheLaw/
story?id=3297537.
    \4\ Marcus Baram & David Schoetz, A Military Wife's Rock and Hard 
Place: Husband Missing in Iraq; Wife Facing Potential Deportation at 
Home, ABC News, June 20, 2007, http://abcnews.go.com/TheLaw/
story?id=3297537.
    \5\ Associated Press, Wife of Mass. Soldier missing in Iraq faces 
deportation, attorney says, June 21, 2007.
---------------------------------------------------------------------------
    And yet when Senator John Kerry wrote a letter to Secretary of 
Homeland Security Michael Chertoff, and major news media began 
highlighting Yaderlin's predicament,\6\ Secretary Chertoff suddenly 
exercised his authority to grant ``discretionary parole'' to 
Yaderlin.\7\ Once she had been granted parole, Yaderlin was immediately 
eligible to adjust her status, despite her unlawful entry. Within a 
matter of days, USCIS granted her application to adjust status, and she 
was given a ``green card.'' \8\ The story would have had a happy ending 
but for the continued status of Alex Jimenez, who remains MIA as of 
this writing.\9\
---------------------------------------------------------------------------
    \6\ See Greg Simmons, Feds Say Missing Soldier's Illegal Immigrant 
Wife Not Likely To Be Deported, Fox News, June 20, 2007, http://
www.foxnews.com/story/0,2933,284832,00.html.
    \7\ Chertoff Agrees to Kerry's Request to Protect Wife of Missing 
Soldier, June 21, 2007, available at http://kerry.senate.gov/cfm/
record.cfm?id=277541 (containing text of letter from DHS Secretary 
Chertoff to Senator John Kerry of Massachusetts, describing how 
Secretary Chertoff had directed that ``ICE will grant Ms. Hiraldo 
discretionary parole into the United States'').
    \8\ Associated Press, Illegal Immigrant Wife of Missing Soldier 
Awarded Green Card to Stay in U.S., July 2, 2007.
    \9\ Neil Graves & Douglas Montero, New Hope for GI; Qaeda `Kidnap' 
Busts, N.Y. Post, December 28, 2007, at 27.
---------------------------------------------------------------------------
    Other military families remain in the same predicament. Yaderlin's 
case was resolved successfully, but their cases have not; although DHS 
has a parole policy for Cubans who enter the United States unlawfully, 
it has no such policy for US military family members. An example is 
Army Sergeant Yolanda Guevara, a top-notch soldier whose husband is 
from El Salvador and has Temporary Protected Status. The couple have 
three children who were all born in the United States. Sergeant Guevara 
tried to obtain legal status for her husband; she filed all the 
required papers and paid the required fees, only to be told that her 
husband was not eligible for a green card and would have to go back to 
El Salvador for ten years when his Temporary Protected Status expires 
next year. Under current law, Sergeant Guevara's husband is unable to 
obtain permanent status, and she fears that he may deported during her 
next deployment, leaving her children without a parent. Secretary 
Chertoff could order that Sergeant Guevara's husband receive 
discretionary parole so that he could be eligible for a green card, but 
as of today, he has not. Furthermore, no system can operate 
successfully and fairly if it depends on the personal intervention of 
the Secretary of Homeland Security.
    Hundreds of other US military families face similar dilemmas, with 
family members who cannot adjust status facing possible deportation at 
the hands of the same government that employs their military member 
relatives. Still others have foreign family members who have been 
denied entry to the United States because of minor immigration law 
violations, and are essentially trapped overseas with no hope of 
joining their US military family members in America. Ironically, this 
same government often lauds the families' contributions to military 
morale, praises their sacrifices, and provides them with military-
related benefits--but will not permit them to obtain the legal status 
that would truly allow their loves ones to focus on service to their 
country.
    Some of these problems might be resolved if the Department of 
Homeland Security would issue the same sort of policy memo with regard 
to military family members that it has issued for Cubans, but other 
problems cannot be solved without changes to the law. A very serious 
problem today is the fact that many military family members are 
completely barred from obtaining lawful permanent residence, and the 
law does not permit waivers. Some have entered the United States 
illegally and cannot adjust their status; some have worked unlawfully; 
many cannot leave the United States for fear of triggering a 3-year, 
10-year, or permanent bar to their return. The current stepped-up 
enforcement efforts by the Department of Homeland Security have forced 
many military family members into exile in a foreign country. When this 
happens, the US military may eventually lose the US military member, 
who may not want to continue to serve in the United States military 
when his or her family has been banished to Mexico, the Philippines, 
Kenya, or some other far away place. Without legal reform, these 
problems cannot be resolved.
    A case in point is the plight of George Mayieka, an Army soldier 
who serves in the critical health care field. George's wife was told to 
leave the United States and go to a U.S. consulate abroad for her green 
card processing by the well-meaning but mistaken advice of a trained 
U.S. Government immigration attorney and a trained Immigration Judge. 
At the consulate, the consul--whose decision is final and not subject 
to judicial review in any U.S. court--determined that George's wife is 
not, under current law, eligible for a green card after all, nor for 
any waiver that would make her eligible. George's wife is now trapped 
in a conflict-ridden country in Africa while he worries constantly 
about her well-being, and agonizes about whether to see a hardship 
discharge from the Army so that he can live with her overseas. If 
George leaves the service, America's Army will lose yet another 
critical health care worker at a time when they are in short supply.
    I mention this case as just one example--but America's grounds of 
exclusion and deportation--now inadmissibility and removability--have 
become so strict, so tight, and so unforgiving that few home-grown 
Americans could ever qualify for green cards. Those grounds need 
wholesale revision. In the meantime, as a stopgap, we should improve 
our system of executive branch waivers to allow families to stay 
together. Many families could benefit from such waivers, but a good 
starting point would be to allow DHS to grant waivers to military 
families. This is not just a matter of fairness, but a matter of 
military readiness.
    On January 28, 2008, in his State of the Union address, President 
George W. Bush emphasized the important contribution that military 
families make to America's national defense. ``Our military families 
also sacrifice for America,'' President Bush said. ``They endure 
sleepless nights and the daily struggle of providing for children while 
a loved one is serving far from home.'' \10\ It is time that we honor 
the sacrifices of non-citizen military families by fixing our broken 
immigration laws so that these families can enter and remain legally in 
the United States, where they provide critical support to our fighting 
men and women.
---------------------------------------------------------------------------
    \10\ President George W. Bush, State of the Union Address (Jan. 28, 
2008), available at http://www.whitehouse.gov/news/releases/2008/01/
20080128-13.html.

    Ms. Lofgren. Captain Rivera, we would be pleased to hear 
from you now. Could you turn on the microphone, please.

   TESTIMONY OF KARLA ARAMBULA DE RIVERA, E2 OFFICER, UNITED 
                          STATES NAVY

    Ms. de Rivera. Good afternoon, Chairwoman Lofgren and 
Members of the Subcommittee. I am pleased to provide you an 
overview of my experience as an immigrant to the United States.
    My name is Karla Arambula de Rivera. I am a native of 
Mexico. I was brought to live in the United States as a little 
girl, and I have lived here ever since.
    I married a U.S. citizen in 2004 and became a conditional 
permanent resident that was set to expire in 2 years. In March 
of 2007, I enlisted in the Navy. In July of 2007, I was 
supposed to apply to adjust my status to that of a lawful 
permanent resident, removing the condition.
    While in a school in Pensacola, Florida, I went to seek 
help from Navy Legal Service Office Central, where they helped 
me to file the I-751 to adjust my status based on my marriage 
to a citizen. This form was returned due to a postdated check. 
I returned to the Naval Legal Service Office Central, where I 
was advised I could file instead an N-400 to become a 
naturalized citizen based on my military status.
    Naval Legal Service Office Central filed an N-400. I then 
reported to the USS Carl Vinson in August of 2007. The Vinson 
checked on my immigration package to find out that the Nebraska 
Service Center had no record of me filing an N-400. The Vinson 
helped me file a new N-400 in December of 2007.
    In January of 2008, I was sent a notice to appear in an 
immigration court in Los Angeles, California, due to the fact 
that my status was terminated because I failed to file the 
petition to remove the conditions based on my marriage to a 
U.S. citizen. My hearing date was on February 28, 2008.
    I went to my new local legal assistance office, Naval Legal 
Service Office Mid-Atlantic in Norfolk, Virginia. With their 
help, I filed a motion to change venue to Arlington, Virginia, 
but the court would not rule out on that motion until the day 
of the hearing, which required me to travel to California. At 
the hearing, I was fortunate to be represented by pro bono 
counsel who had helped me file my original paperwork for 
residency. The counsel asked the judge to terminate the 
proceedings based on the form and memo put out by U.S. 
Immigration and Customs Enforcement which states that ICE 
should not initiate removal proceedings against military 
members who are eligible for naturalization under section 328 
or 329 of the INA.
    Despite the fact that I had an N-400 application pending 
based on my military service, ICE objected to the termination 
on the judge and the judge would only grant the motion written 
by Naval Legal Service Office Mid-Atlantic to change the venue 
to Arlington.
    I have a new hearing date set for July 1, 2008, in 
Arlington. Naval Legal Service Office Mid-Atlantic helped me 
find an organization that would help provide an attorney for 
free and got me started toward citizenship. I have an interview 
with the Norfolk Field Office for my naturalization scheduled 
for May 27, 2008.
    Hopefully, by the time my hearing in Arlington comes, I 
will be a citizen, and this nightmare will be behind me. The 
situation has been extremely difficult for me both 
professionally and personally as an enlisted member of the 
Navy, stationed onboard the USS Carl Vinson, a carrier that 
frequently deploys. I am worried about letting my shipmates 
down and working out of my rate if left behind during 
deployment, which would have an effect on my military career. I 
know the ship will ensure that I make the hearing, but it is 
difficult for them and for me.
    I have also had to spend my own time and money travelling 
to Los Angeles for the removal hearing. I am grateful that I 
have had the assistance of Naval Legal and opportunities to 
find pro bono legal services to help me with this complex 
issue. If it hadn't been for their help, I would not have been 
able to afford legal counsel on my own.
    Thank you for your continued support.
    Ms. Lofgren. Thank you very much and for your service to 
our country.
    [The prepared statement of Ms. de Rivera follows:]

             Prepared Statement of Karla Arambula de Rivera

    Chairwoman Lofgren and members of the subcommittee, I am pleased to 
provide you an overview of my experience as an immigrant to the United 
States.
    My name is Karla Arambula de Rivera. I am a native of Mexico. I was 
brought to live in the United States as a little girl and have lived 
here ever since. I married a U.S. citizen in 2004 and became a 
conditional permanent resident that was set to expire in two years. In 
March of 2007, I enlisted in the Navy. In July of 2007, I was supposed 
to apply to adjust my status to that of a lawful permanent resident, 
removing the conditions. While in A school in Pensacola, Florida, I 
went to Navy Legal Service Office Central where they helped me to file 
the I-751, to adjust my status based on my marriage to a citizen. This 
form was returned due to a post-dated check. I returned to Navy Legal 
Service Office Central where I was advised I could file instead an N-
400 to become a naturalized citizen based on my military status. Navy 
Legal Service Office Central filed the N-400. I then reported to the 
USS CARL VINSON in August 2007. The VINSON checked on my immigration 
package to find out that the Nebraska Service Center had no record of 
me filing the N-400. The VINSON helped me file a new N-400 in December 
2007. In January 2008, I was sent a Notice to Appear in Immigration 
Court in Los Angeles, California, due to the fact that my status was 
terminated because I failed to file the petition to remove the 
conditions (based on my marriage to a U.S. citizen). My hearing date 
was on February 28, 2009. I went to my new local legal assistance 
office, Navy Legal Service Office Mid Atlantic in Norfolk, Virginia. 
With their help, I filed a Motion to Change Venue to Arlington, 
Virginia, but the court would not rule on that motion until the day of 
the hearing, which required me to travel to California. At the hearing 
I was fortunate to be represented by pro bono counsel who had helped me 
file my original paperwork for residency. The counsel asked the judge 
to terminate the proceeding based on the Forman Memo put out by U.S. 
Immigration and Customs Enforcement which states that ICE should not 
initiate removal proceedings against military members who are eligible 
for naturalization under sections 328 or 329 of the INA. Despite the 
fact that I had an N-400 application pending based on my military 
service, ICE objected to the termination and the judge would only grant 
the motion written by Navy Legal Service Office Mid Atlantic to change 
venue to Arlington. I have a new hearing date set for July 1, 2008 in 
Arlington. Navy Legal Service Office Mid Atlantic helped me find an 
organization that would provide an attorney for free and got me started 
toward citizenship. I have an interview with the Norfolk Field Office 
for my naturalization scheduled for May 27, 2008. Hopefully, by the 
time my hearing in Arlington comes, I will be a citizen and this 
nightmare will be behind me. This situation has been extremely 
difficult for me both professionally and personally. As an enlisted 
member of the Navy, stationed on board the USS CARL VINSON, a carrier, 
that frequently deploys, I am worried about letting my shipmates down 
and working out of my rate if left behind during deployment, which 
would have an effect on my military career. I know the ship will ensure 
that I make the hearing, but it is difficult for them and for me. I 
have also had to spend my own time and money traveling to Los Angeles 
for the removal hearing. I am grateful that I have had the assistance 
of Navy legal and opportunities to find pro bono legal services to help 
with this complex issue. If it hadn't been for their help, I would not 
have been able to afford legal counsel on my own.
    Thank you for your continued support.

    Ms. Lofgren. Captain Navarro, we would be pleased to hear 
from you now.

TESTIMONY OF CHRISTINE NAVARRO, KC-5 AIRCRAFT COMMANDER, UNITED 
                        STATES AIR FORCE

    Ms. Navarro. Chairman Lofgren, Members of the Subcommittee 
and special guests, good afternoon.
    I attended pilot training in Pensacola and Vance Air Force 
Base, and my first assignment was at MacDill. I have been 
deployed three times since my commissioning, all in support of 
Operation Iraqi and Enduring Freedom. My next deployment is in 
September of this year for 4 months. The statements and 
opinions expressed today are my own and do not represent the 
views of the Air Force, the Department of Defense or any other 
Government agency.
    Now let me take you back to my humble beginnings and tell 
you about the positive impact a bill like this would have on me 
and my family. I come from a family of migrant workers. I grew 
up in a small town. My husband and I were neighbors. Prom, high 
school graduation, acceptance to the academy, he was there. He 
moved out to Colorado in 1999 to be close to me and be part of 
what I wanted to become, a pilot. Academics, football games, 
parades, jump school, and in 2002 graduation, he was there.
    We were married 2 days after I graduated the Academy by the 
justice of the peace. Three weeks later, we found an 
immigration attorney to help us start drafting papers to adjust 
his status.
    After my leave was over, I was back to work, water 
survival, resistance training, pilot training. Three military 
moves later, he was there. In August, 2004, my son was born. By 
then we were settled in Florida, and I had done what I had set 
out to do, fly. The TDYs, the two trips around the world in a 
month, safety school and two deployments, he was there as a 
loving, supportive military spouse. All the while, we were both 
waiting to hear from immigration.
    I received word from my attorney while I was deployed that 
on 13 November, 2006, we were to go to Juarez, Mexico, for my 
husband's consulate interview. We arrived 3 days prior to be 
sure we had time to get all our paperwork in order. His 
interview consisted of a 5-hour wait in line, followed by a 2-
minute question and answer period about how he had entered the 
country. Our lawyers had warned us that his prior entry and 
false claim to citizenship could bar him from the country, but 
we were confident that after 4 years of waiting and thousands 
of dollars we would be able to move on.
    But what you hear on television from so-called experts is 
not the truth. It is not easy to stand in line and get legal. 
Our application was denied, and my husband was told he was 
barred forever from entering the U.S.
    I flew home the next day a single parent, and I flew my 
husband to Mexico. I didn't cry, because I had not accepted 
defeat. I made it a priority to find a way to get us together. 
I would find a way. It could not be possible that my husband, 
who had never been convicted of any crimes, could be barred 
permanently. In the meantime, I could take an assignment 
overseas for a few years while we worked out a waiver.
    In March, 2007, 5 months later, my son was diagnosed with 
cerebral palsy. I was crushed. The EEG, the CAT scan, two 
surgeries, therapies, the doctor's appointments, my husband was 
not there. My better half, my shoulder to cry on is not here.
    I refocused my attention on my son. His medical condition 
takes overseas assignments out of reach for us. So from 
worrying about child care to now worrying about my next mission 
now that my husband is not here, I carry that load alone. I 
have accepted defeat. I could not get us back together. I could 
not find a waiver because there is no waiver.
    I don't work for a one-mistake Air Force or even a two-
mistake Air Force. I maintained that, throughout all of this, 
honesty was the best policy; and it would work out in our 
favor. I don't condone my husband's actions, although in the 
scheme of things what he did was not horrible. He comes from 
humble beginnings. My husband is not a criminal. He is worse 
off than a criminal. Even criminals can pay their debt and are 
afforded the opportunity to be reintegrated into society. Yet 
under U.S. immigration law today, there is no forgiveness 
process.
    I do not know how to love someone and never have an 
opportunity to make a life. Am I supposed to file for divorce 
papers? Should I break up my family to comply with the law? To 
love is to let go, and I need closure and to move on. It is 
only to fair to give him permission to rebuild a life in a 
country he never grew up in. I can't imagine what it must feel 
like for your wife to choose country before you and then to 
choose your son before you.
    I suppose I could apply for a hardship and go live in 
Mexico like others. But I am an American soldier. My life, my 
family, my job is here in the U.S.
    I am proud to do my part today, and I know by testifying 
today I can make you aware of the horrible decision I am being 
forced to make, to choose between husband and country. I hope 
you do your part by passing a bill that will spare other fellow 
soldiers in similar situations my pain. So as long as I can, I 
am honored to serve you in uniform.
    Thank you.
    Ms. Lofgren. Thank you very much.
    [The prepared statement of Ms. Navarro follows:]

                Prepared Statement of Christine Navarro

    Chairwoman Lofgren, Members of the Committee, and Special Guests: 
Good afternoon. Let me start off by thanking you for this opportunity. 
I am a US Air Force Academy graduate, with a degree in astronautical 
engineering and a minor in mathematics. Currently I am working on my 
master's degree in Industrial Engineering from Texas A&M. I attended 
pilot training in Pensacola and Vance AFB, with my first assignment 
being at MacDill AFB. I have been deployed three times since my 
commissioning, all in support of Operation Iraqi and Enduring Freedom. 
My next deployment is in September of this year for four months. The 
statements and opinions I express today are my own and do not represent 
the views of the Air Force, the Department of Defense or any other 
government agency.
    Now let me take you to my humble beginnings and tell you about the 
positive impact a bill like this would have on me and my family. I come 
from a family of migrant workers. I grew up in a small town. My husband 
and I were neighbors. Prom, high school graduation, acceptance to the 
Academy, he was there. He moved out to Colorado in 1999 to be close to 
me and a part of what I wanted to become--a pilot. Academics, football 
games, parades, jump school and then in 2002, graduation, he was there. 
We were married two days after graduating the Academy, by the justice 
of the peace. Three weeks later, we found an immigration attorney to 
help us start drafting papers to adjust my husband's status.
    After my leave was over, it was back to work. Water survival, 
resistance training, pilot training, three military moves, he was 
there. In August of 2004, our son was born. By then we were settled in 
Florida and I had done what I had set out to do. Fly. The TDYs, the two 
trips around the world in one month, safety school and two deployments, 
he was there. As the loving, supportive military spouse. All the while, 
we were both waiting to hear from immigration.
    I received word from our attorney, while I was deployed, that on 
November 13, 2006, we would go to Juarez, Mexico for my husband's 
consulate interview. We arrived three days prior, to be sure we had 
enough time to get all our paperwork in order. His interview, consisted 
of a five hour wait in line, followed by a two minute question and 
answer period about how he had entered the country. Our lawyers warned 
us that his prior entry and false claim to citizenship, could bar my 
husband from the country. But we were confident that after four years 
of waiting, and thousands of dollars, we would be able to move on.
    But what you hear on television from so-called experts, is not 
true--it is not easy to stand in line and get legal. Our application 
was denied and my husband was told that he was barred forever from 
entering the United States. I flew home the next day a single parent. I 
flew my husband to his mother's house in Mexico. But I did not cry--
because I had not accepted defeat, I made it a priority to find a way 
to get us together again. I would find a way. It could not be possible, 
that my husband, who has never been convicted of any crimes, could be 
barred permanently. In the mean time, I could take an assignment 
overseas for a few years while we worked out a waiver.
    Then in March 2007, five months later, my son was diagnosed with 
cerebral palsy. I was crushed. The EEG, CatScan, two surgeries, 
therapies, the doctor's appointments, my husband was not there. My 
better half, my shoulder to cry on . . . is not here. I refocused my 
attention and energy on my son. His medical condition, takes overseas 
assignments out of reach for us. From worrying about child care to 
worrying about my next mission, now that my husband is not here, I 
carry the load alone.
    I have accepted defeat. I could not get us together again. I could 
not find a waiver, because there is no waiver. I do not work for a one-
mistake Air Force, or even a two-mistake Air Force. I maintained 
throughout all of this, that honesty was the best policy and that it 
would all work out in our favor. I don't condone my husband's actions, 
although in the scheme of things, what he did was not horrible. He too 
comes from humble beginnings. My husband is not a criminal. He is worse 
off than a criminal--even criminals can pay their debt and are afforded 
the opportunity to be reintegrated into society. Yet under US 
immigration law today, there is no forgiveness process.
    And I do not know how to love someone and never have an opportunity 
to make a life together. Am I supposed to file divorce papers? Should I 
break up my family to comply with the law? To love is let go. I need 
closure, and to move on. It's only fair to give him permission to try 
and rebuild his life in a country he never grew up in. I can't imagine 
what it must feel like for your wife to choose country before you and 
then again to choose your son before you.
    I suppose I could apply for a hardship separation from the military 
and go live in Mexico, as others have done. But, I am an American 
soldier, my life, my family, my job, is here in the US. I'm proud to do 
my part. I want my family intact. I know by testifying today I can make 
you aware of the horrible decision I am being forced to make--choosing 
between husband and country. I hope you do your part by passing a bill 
that will spare other fellow soldiers in similar situation, my pain. So 
as long as I can, I am honored to continue to serve you in uniform. 
Thank you.

    Ms. Lofgren. General Baca.

 TESTIMONY OF LT. GENERAL (RETIRED) EDWARD D. BACA, PRESIDENT 
                      AND CEO, BACA GROUP

    Mr. Baca. Thank you, Madam Chairwoman.
    As you mentioned, Commander Morales and I are here 
representing the American G.I. Forum. I feel that I am somewhat 
qualified to testify before this Subcommittee on this topic 
since I spent over 41 years, as you mentioned, wearing the 
uniform of the Armed Forces of the greatest Nation in the 
world, the United States of America.
    Let me make it clear that I am not an immigrant, but I do 
understand and can relate to them. I am not sure how to 
categorize my grandparents, who were arguably some of the first 
settlers who came to this continent from the Iberian Peninsula 
to what is now New Mexico. I believe it was called New Spain 
then. My grandparents didn't cross the border. The border 
crossed them.
    My maternal grandparents, who lived with us and helped 
raise me, never learned the English language. We spoke Spanish 
at home, and I had to go to school to learn how to speak 
English. We spoke Spanish as our first language. They and my 
parents taught me a sense of patriotism and love of God and 
country that compelled me to join the military and rise from 
the rank of private to lieutenant general. Only in America is 
that possible, and no one loves and appreciates this country 
more than I do.
    I am here because I have seen and experienced firsthand the 
sacrifices that members, like the ones sitting next to me today 
testifying, and their families endure in the interest of 
gaining and maintaining the freedom that all of us, as 
Americans, enjoy.
    In my service, my duties took me to every corner of the 
world. I was in all seven continents and more countries than I 
could have ever imagined. I was also fortunate in that I had 
been in all 54 States at least once. And all these travels made 
me realize one thing that I have known all my lifetime, that 
with all its warts and sores and weaknesses, we live in the 
greatest country in the world, the United States of America; 
and I am proud to be an American.
    I also realize that it is American service members which 
have made and kept this the greatest Nation in the world. These 
are men and women who have taken a solemn oath to protect and 
defend the oldest living democratic document in the history of 
the world. They subscribe to the code of conduct which first 
article says, I am American fighting man/woman. I serve in the 
forces that guard our country and its way of life. I am 
prepared to give my life in its defense.
    Most women who have taken that oath, that solemn oath have 
upheld it. All have sacrificed, and some have made the ultimate 
sacrifice, giving up their precious lives.
    However, it is not only the service member but their 
families also pay the price for our freedom. The hardships they 
endure are unimaginable for those who have not experienced 
them. Unfortunately, some veterans and members of our families 
have not always been afforded the same rights and privileges 
that our Constitution guarantees most citizens of our society. 
That is why the American G.I. Forum, whom I represent today, 
exists. That is why I am here today to testify before this 
Committee. It is your responsibility, as well as all of us, to 
ensure that if we are willing to send our troops in harm's way, 
that they and their families are guaranteed all the benefits of 
our Constitution, to include citizenship.
    Service members have a right to expect all of us to do our 
part in not only supporting them but also their family members. 
The last thing they need when they are deployed in a dangerous 
situation is to worry about the well-being of their loved ones.
    Let me conclude, Madam Chairwoman, by saying once again how 
proud I am to be an American and to say that I am proud of my 
Hispanic heritage. Hispanic Americans have answered this 
Nation's call in every crisis this country has ever faced, 
starting with a Revolutionary War.
    In 1993, I had the privilege of narrating a documentary for 
Telemundo called Hispanic Heroes. It highlights the 
contribution of Hispanics to our national defense. This 
documentary was awarded three Emmys, not for my performance, I 
might add. The American G.I. Forum and the producer and 
director of this film are planning to make a sequel to the 
original film to include Hispanic contributions since 1993 to 
include all that has occurred post-9/11. We are meeting with 
the producer and, as I said, and asked them if they will 
produce it and air it--excuse me--if they will air it 
afterwards. These documentaries tell the stories and show 
actual interviews with some of those brave veterans that we 
speak of during this testimony.
    Please let me add that Hispanics are one of the many ethnic 
minorities and other proud veterans that have served our 
country in its time of need, many that were immigrants like the 
ones we represent today. We urge you, Madam Chairwoman and 
Members of the Subcommittee, to support our immigrant service 
members and their families and pass this legislation.
    Ms. Lofgren. Thank you very much, General.
    [The prepared statement of Mr. Baca follows:]

                  Prepared Statement of Edward D. Baca

    I am Lieutenant General (Retired) USA, (Retired). Commander Morales 
and I are here representing the American G. I. Forum I feel that I am 
somewhat qualified to testify before this sub committee on this topic, 
since I spent over 41 years wearing the uniform of the Armed Forces of 
the greatest Nation in the world, the United States of America.
    Let me make it clear that I am not an immigrant but I do understand 
and can relate to them. I am not sure how to categorize my Grandparents 
who arguably were some of the first settlers who came to this 
Continent, from the Iberian Peninsula, to what is now the State of New 
Mexico. I believe it was called New Spain then. My Grandparents didn't 
cross the border the border crossed them. My maternal Grandparents, who 
lived with us and helped raise me, never learned the English language. 
We spoke Spanish at home and I had to learn to speak English in my 
first year of school. They and my parents taught me a sense of 
patriotism and love of God and Country that compelled me to join the 
Military and rise from the rank of Private to Lieutenant General. Only 
in America is that possible. No one loves and appreciates this Country 
more than I.
    I am here because I have seen and experienced, first hand the 
sacrifice that members and their families endure in the interest of 
gaining and maintaining peace and freedom for not only the U.S. but for 
the entire world. In my service my duties took me to every corner of 
the world. I was on all seven Continents and in more countries than I 
could have ever imagined. I was also fortunate in that I have been in 
all 54 States and Territories at least once. Over a lifetime I have 
been aware that we are not a perfect nation, we never have claimed to 
be, but with all its warts and sores and weakness we live in the 
greatest Country in the world, our United States of America and I'm 
extremely proud to be an American.
    I have also realized that it is American Service Members which have 
made and kept us the greatest Nation in the world. These are men and 
women who have taken a solemn oath to protect and defend the oldest 
living Democratic document in the history of world. They subscribe to a 
code of conduct which states in its first article ``I am an American 
Fighting Man/Woman, I serve in the forces that guard our Country and 
its way of life, I am prepared to give my life in its defense''. Most 
men and women who have taken the oath have upheld it. All have 
sacrificed and some have made the ultimate sacrifice giving up their 
precious lives.
    However; it is not only the Service Members but their families also 
pay the price for our freedom. The hardships they endure are 
unimaginable for those who have not experienced them. Unfortunately 
some Veterans and members of our Military and their families have not 
always been afforded the same rights and privileges that our 
Constitution guarantees most Citizens of our Society. That is why the 
American GI Forum, whom I represent today, exists. That is why I am 
here today to testify before this Committee. It is your responsibility, 
as well as ours, to insure that if we are willing to send our troops in 
harms way that they and their families are guaranteed all of the 
benefits of our Constitution to include citizenship. Service members 
have a right to expect all of us do our part in not only supporting 
them but also their family members. The last thing they need when they 
are deployed in a dangerous situation is to worry about the well being 
of their loved ones.
    Let me conclude by saying once again how proud I am to be an 
American and also to say that I am proud of my Hispanic heritage. 
Hispanics Americans have answered this nation's call in every crisis 
this Country has ever faced starting with the Revolutionary war. In 
1993 I had the privilege of narrating a documentary for Telemundo, 
Hispanic Heroes that highlights the contribution of Hispanics to our 
national defense. This Documentary was awarded three Emmys. The 
American GI forum and the Producer and Director of this film are 
planning to make a sequel to the original film to include Hispanic 
contributions since 1993 to include all that has occurred post 9/11. We 
are meeting with Officials from PBS this Friday to discuss a proposal 
that we have sent to them asking them when it is produced if they will 
air it. These Documentaries tell the stories and shows interviews with 
some of those brave Veterans that we speak of during this testimony.
    Please let me add that Hispanics are one of the many ethnic 
minorities and other proud veteran's that have served our Country in 
it's time of need. Many that were immigrants like the ones we represent 
today.
    We urge you Mr. Chairman and members of the Committee to support 
our Immigrant Service Members and their families and pass this 
legislation.
    Thank You.

    Ms. Lofgren. Finally, we turn to you, Mr. Seavey.

TESTIMONY OF MARK C. SEAVEY, ASSISTANT DIRECTOR OF THE NATIONAL 
            LEGISLATIVE COMMISSION, AMERICAN LEGION

    Mr. Seavey. Madam Chairwoman, Mr. King, thank you for the 
opportunity to appear before you today and present the views of 
the nearly three million wartime veterans who make up the 
American Legion.
    The American Legion has been a leader in mentoring 
candidates for United States citizenship dating back to the 
beginning of the organization in 1919. Early on, the American 
Legion worked closely with Federal courts to assist in 
naturalization schools throughout the country by aiding legal 
immigrants in learning English, U.S. history and American 
Government.
    Under the Department of Homeland Security's Task Force on 
New Americans Program, the American Legion has partnered with 
the USCIS to again provide assistance to legal immigrants 
moving through the naturalization process on their way to 
becoming American citizens. The early efforts in renewed 
support to those who arrive on our shores legally stems from 
the American Legion's long-standing position on immigration.
    The American Legion remains opposed to any great influx of 
legal immigrants and has called for immigration quotas to be 
set on a moderate and regulated scale in numbers that enable 
the immigrants to be readily absorbed into the culture and life 
stream of the United States. It is expected that all who would 
be citizens arrive in this country legally and while within the 
United States that they be law-abiding residents. Those unable 
or unwilling to do so should be held accountable.
    In recent years, the American Legion has supported much 
legislation that was outlined by Mr. King earlier. We have 
supported legislation that allows noncitizen veterans with less 
than 3 years of active duty service and who are legally in the 
U.S. at the time of enlistment to seek naturalization.
    The American Legion has also encouraged Congress to amend 
the INA to allow immigrant spouses of U.S. military personnel 
who die whether in training or on military installations or 
overseas in hostile conflict to continue their petition for 
permanent resident status within the current 2-year eligibility 
restrictions.
    Additionally, the American Legion argued that the 
Immigration and Nationalization Act should be amended to waive 
fees for posthumous citizenship, assessed to survival family 
members who lose a relative in hostile combat while a member of 
the U.S. Armed Forces and who has a pending application for 
United States citizenship.
    The American Legion opposes any legislation with provisions 
which waives certain grounds of inadmissibility for citizenship 
for both permanent residents who served honorably in the 
Nation's Armed Forces and for their family members. This would 
seem to reward lawbreakers and possibly illegal immigrants with 
a shortcut to citizenship that is nothing less than an official 
pardon for illegal acts or an amnesty.
    Alien service members' relatives who have entered this 
country illegally or overstayed a visa or who may be fugitives 
from justice deserve no special adjustment to their alien 
status. Honorable service in the military of the United States 
must be no more an asset to the family of a permanent resident 
alien than it is to the family of an American citizen who has 
served this Nation with honor.
    No special pardon, no reprieve for lawlessness, no 
exoneration for bad behavior is given to the service person or 
the family simply because one wore the uniform of the United 
States military. The same should be applied to the individual 
or the family of the individual who lacks the status of United 
States citizenship.
    Laws that prohibit illegal entry or continued unlawful 
residency in the U.S. exist for good reason. These reasons 
include national security, the Nation's economy, and a general 
impact that certain aliens would have upon the American 
society.
    The American Legion continues to welcome and strongly 
support legal immigration into the United States.
    One thing I did want to say is that I apologize that our 
National Commander was unable to make it here today. Mr. 
Conyers had mentioned that perhaps he would like to have a 
meeting set up, and we are more than amenable to do that. Our 
National Commander travels extensively, but we would love to 
work----
    Ms. Lofgren. No offense is taken by the Committee. We 
understand there are scheduling conflicts, and we will reach 
out and see if we can have such a meeting.
    Mr. Seavey. Wonderful. Thank you, Ma'am.
    [The prepared statement of Mr. Seavey follows:]

                  Prepared Statement of Mark C. Seavey

    The American Legion has been a leader in mentoring candidates for 
US citizenship, dating back to the beginning of the Organization. Early 
on, the Legion worked closely with federal courts to assist 
naturalization schools throughout the country. By aiding legal 
immigrants with learning English and by teaching US history and 
American government the Legion helped the new citizens to become 
contributing members of our society.
    Just recently, The American Legion began this effort anew. Under 
the Department of Homeland Security's ``Task Force on New Americans'' 
program, the Legion has partnered with the U.S. Citizenship and 
Immigration Service to again provide assistance to legal immigrants 
moving through the naturalization process on their way to becoming 
American citizens.
    The early efforts and the renewed support to those who arrive on 
our shores legally, stems from the Legion's long-standing position on 
immigration. The American Legion remains opposed to any great influx of 
legal immigrants and has called for immigration quotas to be set on a 
moderate and regulated scale in numbers that enable the immigrants to 
be readily absorbed into the culture and life stream of the United 
States.
    Of all who would become American citizens, it is expected that they 
would have arrived in our country legally, and while within the United 
States been law abiding residents. Those unable or unwilling to do so 
should be held accountable.
    The American Legion has supported legislation that allows non-
citizen veterans with less than three years of active duty service and 
who were legally in the US at the time of enlistment, to seek 
naturalization if they are injured or their injuries were aggravated 
while on active duty with the US Armed Forces, resulting in a discharge 
under honorable conditions. The American Legion also encouraged the 
Congress of the United States to amend the Immigration and Nationality 
Act to allow immigrant spouses of U.S. military personnel who die 
whether in training on military installations or overseas in hostile 
conflict to continue their petition for permanent resident status 
without the current two-year eligibility restriction. Additionally, The 
American Legion argued that the Immigration and Nationality Act should 
be amended to waive the fees for posthumous citizenship assessed to 
surviving family members who lose a relative in hostile combat while a 
member of the U.S. Armed Forces and who has a pending application for 
United States citizenship.
    The American Legion opposes any bills with provisions to waive 
certain grounds of inadmissibility for citizenship for both permanent 
residents who served honorably in the nation's Armed Forces and their 
family members. This would seem to reward law breakers and--possibly--
illegal immigrants with a short cut to citizenship that is nothing less 
than an official pardon for illegal acts: an amnesty. Alien service 
members' relatives who have entered our country illegally or overstayed 
a visa or who may be fugitives from justice deserve no special 
``adjustment'' to their alien status.
    Honorable service in the military of the United States must be no 
more an asset to the family of a permanent resident alien than it is to 
the family of the American citizen who has served the nation with 
honor. No special pardon, no reprieve from lawlessness, no exoneration 
for bad behavior is given to the service person or their family because 
one wore the uniform of the United States military. The same should 
apply to the individual or the family of the individual who lacks the 
status of United States citizen.
    Laws that prohibit illegal entry or continued unlawful residency in 
the U.S. exist for good reason. Those reasons include national 
security, the nation's economy, and the general impact that certain 
aliens would have upon American society.

    Ms. Lofgren. At this point, we will go to the part of our 
proceedings when Members of the Committee have an opportunity 
to pose questions to our witnesses.
    Before I do, let me just note, as I mentioned earlier, that 
there is a bill that has been introduced, H.R. 6020. There are 
also several other bills in the House relating to immigration 
and our soldiers. I would just note that H.R. 6020 was authored 
by myself, with Mr. Thornberry on the Armed Services Committee 
as the principal coauthor; Mr. Conyers; Mr. Pence; Mr. Loretta 
Sanchez, who is also on the Armed Services Committee; Mike 
Turner, who is also on the Armed Services Committee; and Mr. 
Silvestre Reyes, who is Chair of the House Intelligence 
Committee. So it was my hope that we would show a bipartisan 
but also very solid effort toward making our soldiers' lives 
easier. You do a lot for us. It seems to me that we should do 
what is necessary for you, for your families to be safe and for 
you to serve our country with that knowledge.
    I would like to just note that the provision of the bill 
questioned by the Ranking Member, and inferentially questioned 
by Mr. Seavey, could be misunderstood and, in fact, was changed 
to a waiver provision from an earlier draft at the suggestion 
of Mr. Sensenbrenner so that it would match what is currently 
the state for service in the military.
    And here is the point. According to published reports, 
about 12 percent of current Army recruits entered basic 
training this year with a special waiver for so-called criminal 
records. And what the military is doing on a case-by-case basis 
is taking a look at what the conviction is and seeing whether, 
really, it is serious or not serious, and if not serious, they 
are allowing those individuals to serve their country in the 
military.
    So here is the situation we end up in. Say, for example, 
you have an offense, it sounds serious when you read it. You 
know, you have been convicted of a sex offense, indecent 
exposure, but it turns out you were actually mooning somebody 
at your high school prom. Not that I approve of that, but it is 
a little different than what you might have imagined by the 
charge itself. In that circumstance, the military is going to 
let that kid join the Army and serve his country.
    However, there is no waiver for naturalization purposes. So 
you end up with a situation where a person joins the military, 
they are waived in for an offense that is actually not serious 
enough to keep them out, so they can go and get shot at in 
Iraq, but they can't raise their right hand and swear 
allegiance to become a citizen of the United States.
    Mr. Seavey, do you think that is reasonable?
    Mr. Seavey. I think our problem is less with it waiving for 
an active-duty military person as much as it is the fact that 
this benefit would accrue to family members who might not be--
--
    Ms. Lofgren. But the question I posed, you have an offense, 
it lets you serve, lets you get shot at and risk your life, but 
prevents you from becoming a citizen. Do you think that is 
reasonable?
    Mr. Seavey. If you are asking if I think it is the same 
offense, in other words----
    Ms. Lofgren. If it is the exact same offense.
    Mr. Seavey. If offense A initially kept you out of the 
military and a waiver was done so that you were put in, I would 
think that that specific incident of that same specific person 
should be waived to become a citizen, if you are in the 
military. And, again, I think our----
    Ms. Lofgren. That is the question I posed.
    Mr. Seavey. Right. I think, again, our issue is more the 
accrual to family members.
    Ms. Lofgren. And we can have another discussion about those 
other issues. But I just wanted to get clear on that point.
    Let me turn to you, Captain Navarro. And your testimony is 
enormously moving. First, your story is the American dream. I 
mean, from humble beginnings through the academy, I mean, what 
an achievement, and how patriotic you are. And then for this 
terrible result for you, it is really heart-breaking to listen 
to.
    I guess it is obvious to ask, but would life be easier for 
you if your husband were back in the United States to help you 
take care of your child with cerebral palsy and do your duty to 
your country in the Air Force?
    Ms. Navarro. Yes, ma'am, it would. As soon as we got 
married, my husband pretty much became a stay-at-home dad while 
we waited for immigration to do everything. So that was his 
job, is he was a stay-at-home dad.
    Ms. Lofgren. Let me turn to you, Colonel Stock. And your 
testimony is extensive, and I read it, and it is very 
interesting. And I recommend that all of the testimony from all 
of the witnesses will be posted on the Subcommittee Web site.
    But you talk about the 1996 act. I personally have problems 
with much of the 1996 act. I voted against the 1996 act.
    But when it comes to, say, a false claim of citizenship, I 
mean, that is pretty easy to do in a nonmalicious way. As a 
matter of fact, we have one of our colleagues, Mr. Gohmert of 
Texas, who has a private bill that he introduced for a person 
who signed with his alien registration number that he was a 
U.S. citizen. Obviously, it was an error. He signed something 
his lawyer prepared for him. He is permanently barred under the 
law, unless we enact legislation.
    Before 1996, was there a possibility to show some common 
sense, for a judge to take a look at it and say, ``This outcome 
isn't reasonable''?
    Ms. Stock. Yes, ma'am. Before September 30, 1996, if you 
made a false claim, then the Government could take into account 
the factors and possibly give you a waiver. It didn't mean they 
had to give you a waiver, but there was flexibility within the 
law that would allow you to possibly, if you merited it, get 
favorable exercise of discretion.
    I think it is also important to point out that this false 
claim can simply be an allegation made on some form. There 
doesn't have to be a conviction for this at all. It is just 
somebody in the Government writing down on a form that you made 
a false claim, and you are just permanently barred for life. 
You have no chance to refute that information. You can't go to 
court and argue that this information was incorrect. And it 
does happen inadvertently. Sometimes it happens on purpose. But 
the point is you don't need a criminal conviction to be 
permanently barred from the United States. This is an awfully 
harsh provision of the law, and it just can't be justified on 
principles of fairness. There has to be some flexibility in the 
law for minor things like this.
    Ms. Lofgren. Let me ask you, based on your experience, of 
the things that cause problems for soldiers, you mentioned, I 
think, the false-claim-of-citizenship issue we just discussed, 
the fact that soldiers aren't getting notices because they are 
moving, and because they don't get notice, then things proceed.
    Have you come across circumstances, other than Ms. Rivera 
here, where you have an American soldier doing combat in Iraq 
and yet another arm of the U.S. Government is moving to deport 
them?
    Ms. Stock. Well, they get told that--it is a little bit 
complicated. They get told that they are going to be deported 
or that a notice to appear has been issued. And, normally, the 
military scrambles with these folks and tries to get them to--
--
    Ms. Lofgren. I am not criticizing the military. I am just 
examining what the law ought to be.
    Ms. Stock. Well, the interesting thing about the law is, if 
a notice to appear is issued to you and you don't show up for 
your hearing, then a deportation order is issued in absentia 
because you didn't show up for your hearing. And then you get 
your name put into the database and you are considered to be a 
fugitive. And the next time you get stopped for a traffic stop, 
you get arrested and deported, basically.
    Now, this is a system that kicks in, and this is one of the 
reasons why Airman Rivera was anxious to go to her hearing in 
California, because if military duty prevented her from going 
to that hearing, the judge would simply issue an in absentia 
order. And then the next thing you know, if she ran into law 
enforcement for some reason, she would get deported.
    Ms. Lofgren. But if she never got the notice because they 
are not using APO boxes or because she moved from one base to 
another, then that circumstance would just fall into place?
    Ms. Stock. It would fall into place. Now, theoretically, 
she could fight it and say, ``I didn't get notice,'' and try to 
fight it, but there is no lawyer given to you to do that. You 
have to have the resources to hire a lawyer. The lawyer has to 
file a motion within a certain period of time.
    Ms. Lofgren. And that is not paid for? And we know how much 
we pay our military.
    Ms. Stock. No, none of this gets paid for. And that is why 
we have created the AILA MAP program to try to provide this 
assistance.
    Ms. Lofgren. With volunteers.
    Ms. Stock. It is a pro bono program, right.
    Ms. Lofgren. My time has expired.
    I will turn now to the Ranking Member for his 5 minutes of 
questions.
    Mr. King. Thank you, Madam Chair.
    And I thank the witnesses for your testimony.
    Ms. Stock, just picking up with you, as I listened to your 
testimony, a number of questions occur to me. And I will just 
take you back to--you put together a pretty complete list of 
issues that I think should be brought before this Committee.
    But I would ask you generally overall, are there crimes 
that you would join with, I will say, me in excluding them from 
waivers, crimes that are so egregious that they should be 
excluded from waiver, with regard to this bill that is before 
us?
    Ms. Stock. Well, sir, I think the problem with generally 
excluding crimes is the same one that Madam Chairwoman 
identified. Sometimes when you look at the details, it turns 
out that the situation is not as bad as it may appear from the 
definition of the crime.
    And we were talking about the waivers earlier----
    Mr. King. Murder?
    Ms. Stock [continuing]. But there was somebody let into the 
Army, and the press made hay about it because this person had 
an arson conviction----
    Ms. Lofgren. Would the gentleman yield?
    Mr. King. I would yield.
    Ms. Lofgren. Because it occurred to me, I mean, the 
military is not waiving in murderers into the U.S. Military. I 
mean, if you have a conviction of murder, they are not allowing 
you to enlist in the military.
    And I yield back. I thank the gentleman for yielding.
    Mr. King. Perhaps, Madam Chair, reclaiming my time. I don't 
know that it is a misunderstanding. I am here, thinking in 
terms of someone who has gotten into the military, then who has 
applied under this bill for them or their family members to 
have a path to citizenship, say, a green card. And then if this 
is a blanket permission that allows the judge to waive crimes, 
then, you know, I think we need to build a very tight fence 
around that.
    And I understand your argument about the indecent exposure, 
which I don't know that that is a sex crime. I don't think that 
we actually prosecute that in my part of the country. So I am 
concerned about that.
    And rather than press for an answer, though, let me just go 
another way. Who would you say no to? If you were in charge of 
writing the immigration policy for the United States of 
America, philosophically, would you draw a line? And where 
would you draw that line, Ms. Stock?
    Ms. Stock. I would go back to the definition prior to 1996 
of aggravated felony, which actually meant serious crimes. 
Today----
    Mr. King. But excuse me. Aside from that, the legal 
discussion then about waivers or aggravated felonies, to set an 
overall immigration policy--let me ask this another way.
    Is immigration policy for the United States, is that a 
whole that we look at as, as I think I heard come out of Mr. 
Seavey, an overall number of people that we legally allow to 
come into the United States, and then a whole that has a sum of 
its part to stay within the whole? Or is it simply the sum of 
its parts and if there is any component of immigration that we 
find that someone had a bad experience with, that we should 
open that up and not be paying attention to the breadth of 
whole?
    What would your policy look like? Would you put a cap on 
the overall number of legal immigrants coming into the United 
States? Because I don't see any restraints there when I listen 
to your testimony.
    Ms. Stock. Well, first of all, as far as I can tell, the 
bill does absolutely nothing to eliminate all the family quotas 
for the whole, entire immigration system. The only thing it 
does is relax some of those quotas for certain----
    Mr. King. Without regard to the bill, your own personal 
philosophy, is 1.3 million people too many or too few? Would 
you put a cap at 2 million, 10 million? Would you cap it at 
all?
    Ms. Stock. Well, with regard to people in the military, I 
think the problem you run into is we are a global military. And 
when you deploy people all around the world, they do fall in 
love with foreigners.
    Mr. King. But with regard to your personal philosophy?
    Ms. Stock. My personal philosophy is that in a global 
society, currently our immigration quotas are too low to meet 
the needs of our----
    Mr. King. What would you set them at then, Ms. Stock?
    Ms. Stock. I would set them at substantially higher than 
what they are today, because they have----
    Mr. King. Two million, 5 million, 10 million a year? In 
what range would you be? Or would you cap them at all?
    Ms. Stock. I think I would at least double the current 
quotas. Because, to me, they are artificially low. They were 
set decades ago. And they haven't----
    Mr. King. Roughly 2.5 million a year?
    Ms. Stock [continuing]. They haven't kept pace with our 
population growth.
    Mr. King. Really?
    Ms. Stock. But I think the critical point here--and I will 
give you an example. Earlier, we were talking about crimes. I 
spoke to a Navy sailor last week who is serving honorably in 
the Navy but he cannot become an American citizen. And the 
reason he cannot become an American citizen is because, 9 years 
ago, he stole a bicycle, and he was sentenced to 365 days in 
jail----
    Mr. King. Thank you, Ms. Stock. My clock is running down, 
and I am sorry. I have to move on, or I won't be able to get my 
last question in. I appreciate your testimony.
    And I would turn to Mr. Seavey and pose this question. And 
I heard it come out of your testimony, Mr. Seavey. When a 
soldier takes an oath, and takes an oath also to the 
Constitution of the United States, is it not implicit to uphold 
the rule of law? And is it not inconsistent then to waive the 
rule of law for those who have taken that oath?
    Mr. Seavey. Well, certainly, we would argue that it is.
    And if I could real quick on your previous question about 
the discretion, I think that the DOD, when it makes a waiver 
for someone coming in, has a more vested interest than perhaps 
an immigration judge in granting this waiver.
    So I am not a big fan of waivers into the military, having 
served as an infantry squad leader, but they happen, and I have 
enough faith in the DOD that they are using this discretion 
wisely. I am a little nervous about what an open-ended waiver 
might be, going back to the earlier discussion.
    But certainly, when you raise your hand and swear 
allegiance and everything else when you join the military, I 
think the rule of law is the fundamental precept to which you 
are pledging your allegiance.
    Mr. King. I thank you, Mr. Seavey.
    And, Madam Chair, I yield back.
    Ms. Lofgren. I would just note before recognizing Mr. 
Gutierrez that the number assigned for family preference every 
year is 226,000.
    And, Mr. Gutierrez, you are recognized for 5 minutes.
    Mr. Gutierrez. Madam Chair, thank you so much for calling 
this hearing.
    And I thank the witnesses for coming forward, and 
specifically Ms. Rivera and Ms. Navarro for coming and sharing 
their plight with this Committee. I think it is very, very 
important to establish a record that will allow us the 
legislative action necessary in order to stop these things from 
happening in the future. I mean, you are obviously 
representative of a class of people that need Congress to 
respond.
    I will say that I find it amazing that people could come 
forward since--somebody to my left or somebody is to my right, 
and they are having an immigration issue, and they helped save 
my life and we are in combat together, I don't know, I don't 
know if the soldier asks his comrade in arms next to him. It 
kind of reminds me of my dad. He couldn't speak English, but it 
wasn't a problem, he was sent to Korea, as I know tens of 
thousands of others who could never speak the language, the 
English language, have served in the military without a 
problem.
    As a matter of fact, if memory serves me correctly, a young 
man from Guatemala who entered this country illegally, then 
applied under false pretenses saying that he was really not 20 
but he was 17 and thereby got his legal permanent residence, 
the first thing he did was join the Marines, and he was the 
first casualty in Iraq. That just happens to be the history of 
what goes on here.
    So, you know, let's look at things not from this legal, 
illegal--let's look at what people do and how they participate, 
and then let's do the right thing based on that. Because I 
think that the law and the consequences of the law should have 
some relationship with what it is they supposedly did wrong.
    So we have people that are obviously heroes in anyone's 
view whose wives are being deported, whose husbands are being 
deported, and I think that other men and women in the military 
might want to stand up.
    I bet that if I went back on that ship with Petty Officer 
Gonzalez, and I went to all of the people who were on that 
ship--I don't know if you all know about Petty Officer 
Gonzalez, whose wife now is an LPR--and it is amazing what 
happens when you testify before this Committee; your problems 
get resolved. But that is a positive note.
    But if I went to all of fellow sailors and said, ``What do 
you think we should do? Should we deport his wife, or should we 
allow her to stay in the United States with Petty Officer 
Gonzalez?'', I bet I know what the men and women in uniform 
would decide instantaneously that they would do with their 
fellow brother. I mean, come on, just think of this from a 
logical point of view, in terms of what people would do. 
Obviously it would be there.
    But then we have a situation where, let me see, Roosevelt 
thought during World War II, ``You know, after this war, we 
should make sure that all of those men and women who come back 
here, that they are able to buy a home and go to college.'' Now 
we have legislation that has over 300 sponsors here in the 
House to allow anybody who went to war in Iraq, that served in 
our military, that after they have served be able to go to 
college. And we have a President of the United States who it is 
said was in the National Guard during the Vietnam War, and a 
Vice President who on five different occasions said, ``I have 
something more important to do than to serve in Vietnam,'' and 
got five deferments, we have that Administration saying, no, if 
that legislation comes before us, although the war was our idea 
and we really think it is a terrible thing that all of these 
men and women have died in combat and all of these tens of 
thousands, we are going to veto that legislation.
    So that is the kind of quandary that you find yourself in. 
We have a Congress of the United States and we have an 
executive government who extols the virtues of those who serve 
in our Armed Forces but won't stand up to make sure that, at 
the end of the day, you get a fair shake, that your family is 
sacrosanct. We go thousands of miles away in order to establish 
democracy while the basic foundation of any democracy, I think, 
is the family. We should do everything we can to preserve that 
family.
    So I thank you all for your testimony here today.
    Ms. Lofgren. The gentleman yields back.
    I would turn to Mr. Goodlatte for his questions.
    Mr. Goodlatte. Well, thank you, Madam Chairman. I 
appreciate your holding this hearing.
    I would like to ask all of the witnesses if, in their 
opinion, H.R. 6020 grants more favorable treatment to illegal 
aliens serving in the military than current law grants to legal 
residents serving in the military?
    Ms. Stock, do you want to comment on that first?
    Ms. Stock. I am sorry, but I am not quite sure I understood 
what you were asking. If it grants more favorable treatment 
to----
    Mr. Goodlatte. To people who are illegally in the United 
States serving in the military than it grants to legal 
residents serving in the military?
    Ms. Stock. No, I don't believe that it does. People who are 
legally here currently, for the most part, can adjust their 
status, can obtain benefits.
    I mean, the problem we are having with the legal people is 
that they become illegal because the laws are so complicated 
and they have trouble complying with them, and then they fall 
out of status and become illegal, and then they can't get their 
status straightened out. In fact, that is a lot of the cases 
that we are dealing with, are people who entered legally at one 
point but ran afoul of the immigration laws.
    I am not sure that you can separate the two out so neatly, 
as everybody likes to try to do.
    Mr. Goodlatte. Are there requirements that are relaxed for 
illegal aliens that are not relaxed for similarly situated 
legal residents serving in the military?
    Ms. Stock. Well, I will just throw out one thing. People 
keep talking about they are against an amnesty, but we have an 
amnesty going on right now for everybody from Cuba. If you 
are----
    Mr. Goodlatte. Okay. So your answer is yes.
    Let me ask Mr. Seavey if he would care to respond to that.
    Mr. Seavey. I would certainly say that I know of no other 
circumstance where someone gains a benefit from having a 
relative serving in the active duty. So I guess I would have to 
say yes.
    If the question was whether the American Legion feels it is 
appropriate to deport the spouse of someone serving in Iraq, 
our answer is no. But we think that could be more easily solved 
through something like the Soldiers and Sailors Relief Act or 
something of that nature.
    The fact that this benefit is accruing to such a wide range 
of people in such a wide range of ways certainly makes us very, 
very leery. So, in short, yes, I think it is safe to say that 
this benefit does accrue more rapidly, at least, to someone who 
is here illegally than someone who here legally or family 
members.
    Mr. Goodlatte. Does anyone else want to respond to that?
    Well, let me ask, then, Mr. Seavey and Ms. Stock too, if 
she cares to respond, if the Army found out that a member of 
the Armed Forces got a job with the military by committing 
fraud in his or her paperwork about their legal status, which 
would seem to amount to a fraud against the U.S. Government, 
what punishment would be imposed?
    Do you know, Mr. Seavey?
    Mr. Seavey. I honestly don't know.
    Mr. Goodlatte. Do you know, Ms. Stock?
    Ms. Stock. Well, I think it depends on the case, because 
military justice is administered by commanders. But there was a 
Senator from Washington who committed fraud a long time ago by 
joining the military. He lied about his age and was allowed 
into the military, and later on went on to become a United 
States Senator. He was not punished because it was determined 
that, although he had lied about his age and used a false birth 
certificate in order to enlist in the Navy at the time, he went 
on to have a great career and serve his Government, so he was 
not punished.
    Commanders take into account the individual circumstances 
of people and their background and the equities when 
administering military justice.
    Mr. Goodlatte. So do you think it is a national security 
concern for foreign nationals in the country illegally to 
commit fraud to obtain positions in the Armed Forces?
    Ms. Stock. Well, I do believe that any time anybody enters 
the United States military, there is always a security issue. 
You need to vet people, fingerprint them. But the Armed Forces 
are doing that right now. We check their status with Homeland 
Security. We fingerprint people. We run background----
    Mr. Goodlatte. Well, that doesn't really answer my 
question. If they commit fraud to enter the military, is there 
a national security concern?
    Ms. Stock. Well, there could be. Again, I throw the example 
of the Senator out when----
    Mr. Goodlatte. Mr. Seavey, do you want to respond to that?
    Mr. Seavey. Absolutely, we think there is. And that is 
something that obviously should be focused on. We would hope 
that the military entrance processing would pick up on that, 
but obviously that is not always going to be the case, 
particularly when they are receiving faulty information from 
the get-go. So, yes, we think clearly it is a national security 
issue.
    Mr. Goodlatte. And wouldn't this legislation provide relief 
for the very individuals who committed that fraud?
    Mr. Seavey. My cursory reading of it is, yes, yes, it 
would.
    Mr. Goodlatte. You know, I think there are some good 
objectives in this legislation, but I would hope that some of 
the issues that have been raised here----
    Mr. Baca. Sir, may I----
    Mr. Goodlatte. Sure, just 1 second--related to family 
members and related to these types of actions, related to 
fraud, ought to be addressed before the legislation moves 
forward.
    And I will be happy to recognize you.
    Mr. Baca. Individuals that enlist in the Armed Services are 
screened, all screened thoroughly.
    And in terms of people that take the oath, my mentor and 
the person that enlisted me came into the service and served as 
a World War II hero and a Korean War hero, and he came in under 
false pretenses in that he lied about his age. He was 16 years 
old. And he served well and was never punished for it. 
Eventually it came out. He just wasn't given credit for that 1 
year between 16 and 17.
    Mr. Goodlatte. Well, we certainly understand that these 
things have to be addressed on a case-by-case basis, as Ms. 
Stock suggested. But I wouldn't give the kind of latitude that 
this legislation provides, because it might not be just lying 
about your age. It might be lying about some other aspects of 
your status. And it might be for the purpose of entering the 
military for the purpose of engaging in activities that are not 
helpful to the United States. So I think we need to be very 
careful about that as we move this legislation before.
    I thank you, Madam Chairman.
    Ms. Lofgren. I thank you. The gentleman's time has expired.
    I would recognize the gentlelady from California, my 
colleague, Congresswoman Waters.
    Ms. Waters. Thank you very much, Madam Chairman. I have 
said on several occasions that the work that you have done on 
immigration is commendable. It is remarkable that you have 
spent so much time taking up issues that I never even dreamed 
existed with immigration. And I am very appreciative for the 
opportunity to learn a lot more about the complications of this 
issue and very appreciative that you have dedicated so much of 
your time to dealing with these issues.
    I am a little bit in awe of the witnesses, some of our 
witnesses that are here today, particularly our two members of 
the military, who are describing to me what I consider to be an 
unbelievable situation.
    I have worked in this Congress long enough to know that we 
hold our soldiers, our military, our troops in high esteem, and 
we hear on a daily basis how much we support them. I didn't 
know that there was a difference between some soldiers and 
soldiers who may--are military who may have served, who are 
not, as it was described, in complete compliance with military 
law in some way, based on their immigration status. And it is 
hard for me to internalize and to understand how it is someone 
could serve this country and make those sacrifices and we not 
want to do everything that we can to honor that service with 
citizenship.
    I guess the case can be made that somehow they are getting 
something that others are not getting. But if others don't have 
the problem of trying to keep their families together and of 
having been brought to this country when they were babies, 
having lived here, attended school here and worked here and 
gone into the military, and only then to be told at some point 
that, not only will the military service perhaps not be 
honored, but they may be separated from their families, they 
may be sent to countries that they know nothing about, on and 
on and on, it is just amazing to me.
    It seems to me that the best thing that we could do for 
many of these situations is to try and come up with a way that 
we can honor those who serve with citizenship certainly after 
they have demonstrated their support for this country and their 
ability to serve satisfactorily in the service.
    I feel a little bit strange that, as I listened, I don't 
and most of us don't really understand what the 1751 is and 
what an M-400 is and what a 328 and a 329, and on and on and 
on, but it sounds as if it is the kind of run-around that 
nobody should have to experience.
    So I think, with all of these hearings--I don't know if I 
have any questions. I mean, we have heard--I guess maybe just 
one.
    Colonel Rivera, have you discussed with your lawyer if or 
how your immigration status would be affected if you were to 
leave the United States while you were still in removal 
proceedings? I mean, what is your lawyer saying about that?
    Ms. de Rivera. Well, thank you, Congresswoman Waters.
    I have not quite discussed what would happen if I were to 
leave--if I were to get ordered removed from the country. We 
are not really focusing on that right now, to be honest with 
you. However, it does affect me greatly to know that that is 
even a possibility.
    Ms. Waters. What if you are not able to deploy when they 
deploy, what happens to your career?
    Ms. de Rivera. I could quite possibly lose my rate, my 
job----
    Ms. Lofgren. Would the gentlelady yield?
    Ms. Waters. Yes.
    Ms. Lofgren. Because I think the answer is that if Ms. 
Rivera is deployed outside the United States, she would be, 
under immigration law, she would be perceived as self-
deporting, and she would not be readmitted with her unit if she 
had to go. She would be considered deported, even though she is 
active-duty military.
    And I thank the gentlelady for yielding.
    Ms. Waters. Thank you very much.
    So there is a possibility, if you are deployed, you could 
be considered as just described and not allowed to come back 
in. There is a possibility if you stay here and you don't 
deploy when they do, that you could lose your rank? Is that 
what you said? Or your rate?
    Ms. de Rivera. My rate, which would be my job. I would not 
be able to perform my job. And, more importantly, I would not 
be able to return to the United States. Say we deployed to 
Kuwait, once I hit port, once I get off the ship, I am not 
allowed to come back.
    Ms. Waters. So if you were deployed to Kuwait, we would 
leave you there?
    Ms. de Rivera. Yes, ma'am.
    Ms. Waters. That is shocking.
    Ms. de Rivera. And then it would be up to that government 
to return me back to Mexico.
    Ms. Waters. Well, I suppose I have no other questions. I 
just want to be a part of the solution.
    I yield back the balance of my time.
    Ms. Lofgren. I thank the gentlelady.
    And I would recognize the gentleman from California, 
Congressman Lungren.
    Mr. Lungren. Thank you very much, Madam Chairman.
    I am glad that most of this hearing has been nonpartisan. I 
am sorry we had to have some swipes, the usual bash Bush and 
bash Cheney, and then hit and run, because I don't think that 
really adds anything to our discussion, and I think that is to 
be lamented.
    Colonel Stock, as I understand some of your testimony at 
the very beginning, you suggested that we have some problem 
with the slowness with which there is naturalization for 
military members as a general rule.Is that correct?
    Ms. Stock. No. As a general rule, the citizenship process 
for military personnel is going very well. But we do have an 
ongoing problem with the FBI name checks and with the quick 
processing of enlistment fingerprints. The enlistment 
fingerprints don't get processed very fast.
    Mr. Lungren. And you also mentioned sometimes they won't 
recognize military doctors for the physical examines? Is that 
what I heard you say?
    Ms. Stock. Yes. Homeland Security only recognizes the 
persons that they have certified to perform medical 
examinations, and most of the military doctors can't qualify 
because of the arcane rules relating to the civil surgeons.
    Mr. Lungren. So they are good enough to take care of our 
military people but not good enough to do physicals?
    Ms. Stock. Yes.
    Mr. Lungren. It seems to me that is a simple thing we might 
be able to check on.
    Ms. Lofgren. One would think.
    Mr. Lungren. No, I am serious.
    Ms. Lofgren. I agree.
    Mr. Lungren. We could at least say, what is the nonsense 
here? And you and I both serve on Homeland Security Committee. 
It seems to me that we ought to be able to----
    Ms. Stock. I think it would be great to give an automatic 
certification to all of the military doctors to do----
    Ms. Lofgren. If the gentleman will yield, I will be happy 
to prepare a letter that bipartisan Members can sign.
    Mr. Lungren. Now, what is the problem with fingerprints?
    Ms. Stock. Well, right now, in order to expedite military 
naturalizations, we have an agreement with Homeland Security 
that they will accept military enlistment fingerprints, so that 
soldiers, sailors, airmen and Marines don't have to go to an 
application support center and have their fingerprints redone.
    Mr. Lungren. Right. We have that. So what is the problem?
    Ms. Stock. Well, the problem is that the enlistment 
fingerprints don't get processed fast. Sometimes they take 9 or 
10 months to process.
    Mr. Lungren. So that is a military problem?
    Ms. Stock. It is not the military. It is apparently related 
to another Federal agency outside the Department of Homeland 
Security.
    Mr. Lungren. And who is that?
    Ms. Stock. I believe it is the FBI.
    Mr. Lungren. Madam Chair, again----
    Ms. Lofgren. We actually have flagged some of these items 
from the testimony, and we are preparing a letter.
    Mr. Lungren.--it seems we could do something on that, as 
well.
    And the other thing you mentioned was the address for the 
notices, that somehow DHS doesn't recognize the military 
addresses? Is that correct?
    Ms. Stock. This is a software computer problem where their 
system doesn't recognize APO and FPO addresses.
    Mr. Lungren. Are they addressing that?
    Ms. Stock. Not as far as I know.
    Mr. Lungren. Again, Madam Chairman, we all agree on that. I 
mean, these are dumb things for bureaucracy that ought to be 
taken care of. And I don't think there would be any 
disagreement among all of us on those sorts of things.
    Ms. Lofgren. I would hope.
    Mr. Lungren. Now let me address something else. And, again, 
I am sorry that one of our fellow members has left, because he 
said, ``legal, illegal, let's get away from that; it doesn't 
matter.'' Well, it does matter. And what we do here and how we 
fashion the bill is important.
    In 1986, I was the Republican floor manager for the 
Simpson-Mazzoli bill, the largest single legalization in the 
history of this Nation. We thought it was appropriate at that 
time. We thought it would, with enforcement, stop the 
tremendous amount of illegal immigration we had.
    We legalized a lot of people; I am proud of that, frankly, 
under the circumstances. But it didn't have the intended 
effect, which was to close off illegal immigration into this 
country.
    So I would just say that it is important how we fashion a 
bill, it is important how we enforce the bill.
    So, Captain Navarro, I just want to get a little bit of 
your story. And that is, what is the basis of your husband's 
illegal status? He came to the country illegally when he was a 
young boy, young man? What is that deal?
    Ms. Navarro. Honestly, sir, I am really not prepared to 
answer any questions on the specifics of my case. But I can 
prepare something in writing for you, so I don't give you any 
false information or misquote anything. It has been almost 2 
years since when all this happened, so I honestly don't want to 
give you any wrong information.
    Mr. Lungren. Okay, but let me just ask you this. When you 
went to the Air Force Academy and your now-husband, then-
boyfriend, followed you there, did you realize that he was not 
in the country legally at that time?
    Ms. Navarro. Again, sir, I don't believe any of that really 
has anything to do with what----
    Mr. Lungren. Well, here is the reason I am asking. You have 
come forward as an example of the reason why we ought to change 
the law, and I respect that very much. And so maybe you are 
here to testify on that, but we can't ask you questions because 
you think it might jeopardize your husband's case. And, okay, I 
can appreciate that.
    But, as I said, having been involved in immigration law 
structure in the past, how we fashion a law to take care of 
perceived problems is extremely important so that we avoid 
unintended consequences.
    Ms. Lofgren. Would the gentleman yield?
    Mr. Lungren. I would be happy to yield.
    Ms. Lofgren. I would note, the captain's testimony, on page 
2, is that her husband was not permitted to receive his visa 
because of a prior entry and false claim to citizenship. As we 
know, there is no waiver, no matter what the circumstances, on 
an allegation of a false claim to citizenship.
    Rather than question Captain Navarro--and I appreciate that 
all these military people have come forward, I would think--and 
we will diligently follow up her offer to provide the details 
of this case.
    And I thank the gentleman for yielding.
    Mr. Lungren. Well, I appreciate the gentlelady, but, you 
know, it does make it difficult for us to hold hearings to try 
and gather information if, when we have witnesses here, we 
can't ask a question. I am not asking the question to embarrass 
anybody. I am trying to get a kind of idea of the circumstances 
that occur that we think we ought to take care of.
    Because, as the Ranking Member has said, this bill has a 
wide scope. I have some sympathy for parts of the bill, but the 
bill has a wide scope. It is asking us in many cases to make 
waivable different disqualifiers, including crimes. When I got 
the original memo on the bill, it included crimes such as human 
trafficking was to be one of the waivable offenses. I thought 
that was one of the things we ought not do, and there were 
several other things.
    So all I am trying to do is try and figure out stories, 
figure out how they specifically applied to the language of the 
bill. And I am kind of disappointed that I can't ask those 
questions.
    Ms. Lofgren. I thank the gentleman.
    And noting that there are no additional Members here 
seeking to ask questions, let me at this point first thank you 
for your service.
    Oh, Mr. Gohmert, you have arrived. I didn't see you there. 
Mr. Gohmert, are you interested in asking questions?
    Mr. Gohmert. No, Madam Chairman. Thank you.
    Ms. Lofgren. Then I will note that, number one, we thank 
you for your service to our country. I am personally 
committed--I can't guarantee success, but I can guarantee 
effort--to try and make sure that we do the right thing when it 
comes to our men and women serving in the military and their 
families.
    I would note that, you know, no bill is necessarily 
perfect. This one may be no exception. But we have worked hard 
to try and make sure that it is a solid, rational approach.
    I think that it is a mistake for the Congress to think that 
they can micromanage every case. Because that takes a judge 
looking at the facts of each and every case to make a decision 
that is a just one.
    I would just note that the stated law is today, if you are 
an American citizen serving in the military in Iraq, and you 
got married to a woman from another country, say you married 
somebody from Paris, but you get killed by an IED before that 
visa is processed, is your widow honored? No, she is deported. 
So I don't think that is the kind of America I believe in, and 
I think there are some things we need to do to clean this up.
    As we look forward to Memorial Day, I hope that we can sort 
through. I think there has been maybe some confusion on some of 
the details of this bill. I think Mr. Conyers's idea to have a 
sit-down session and sort through the details is a good one. I 
plan to do that in the spirit of bipartisanship and in the 
hopes that we can honor our military for their tremendous 
service to us.
    And let me just further say to the two servicewomen who are 
here, if there is anything that we can do, that I can do 
personally, to assist either of you in your personal 
situations, I would very much like to do that.
    With that, we may have further questions. If so, we will 
forward them to you, and we ask that you answer them as 
promptly as possible.
    The hearing record for this hearing will be open for the 
next 5 days.
    And, with that, we thank you very much, and the hearing is 
adjourned.
    [Whereupon, at 4:12 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
